<html>
<title> - SMART POWER: REMAKING U.S. FOREIGN POLICY IN NORTH KOREA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





        SMART POWER: REMAKING U.S. FOREIGN POLICY IN NORTH KOREA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON ASIA, THE PACIFIC AND
                         THE GLOBAL ENVIRONMENT

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

                            Serial No. 111-5

                               __________

        Printed for the use of the Committee on Foreign Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
47-419 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT 
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

      Subcommittee on Asia, the Pacific and the Global Environment

            ENI F. H. FALEOMAVAEGA, American Samoa, Chairman
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
DIANE E. WATSON, California          BOB INGLIS, South Carolina
MIKE ROSS, Arkansas                  DANA ROHRABACHER, California
BRAD SHERMAN, California             EDWARD R. ROYCE, California
ELIOT L. ENGEL, New York             JEFF FLAKE, Arizona
GREGORY W. MEEKS, New York
               Lisa Williams, Subcommittee Staff Director
         David Richmond, Subcommittee Professional Staff Member
             Nien Su, Republican Professional Staff Member
                       Vili Lei, Staff Associate










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Selig S. Harrison, Asia Director, The Center for 
  International Policy...........................................    10
The Honorable Charles L. Pritchard, President, Korea Economic 
  Institute (Former Ambassador and Special Envoy for Negotiations 
  with North Korea)..............................................    40
Victor Cha, Ph.D., Associate Professor, Director of Asian Studies 
  and D.S. Song-Korea, Foundation Chair in Asian Studies and 
  Government, Georgetown University..............................    45
Mr. Bruce Klingner, Senior Research Fellow, Northeast Asia, The 
  Heritage Foundation............................................    64
Mr. Scott Snyder, Senior Associate, International Relations, The 
  Asia Foundation................................................    77
Mr. Peter Beck, Adjunct Professor, American University...........    89

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........     7
Mr. Selig S. Harrison: Prepared statement........................    13
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    26
The Honorable Charles L. Pritchard: Prepared statement...........    42
Victor Cha, Ph.D.: Prepared statement............................    48
Mr. Bruce Klingner: Prepared statement...........................    67
Mr. Scott Snyder: Prepared statement.............................    80
Mr. Peter Beck: Prepared statement...............................    93

                                APPENDIX

Hearing notice...................................................   112
Hearing minutes..................................................   114
The Honorable Donald A. Manzullo: Article entitled ``Red-
  Handed,'' Foreign Affairs, March/April 2005....................   115
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California: Article entitled ``Red-Handed,'' 
  Foreign Affairs, March/April 2005..............................   118

 
        SMART POWER: REMAKING U.S. FOREIGN POLICY IN NORTH KOREA

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009

              House of Representatives,    
              Subcommittee on Asia, the Pacific    
                            and the Global Environment,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:05 p.m. in 
room 2172, Rayburn House Office Building, the Honorable Eni 
F.H. Faleomavaega, (chairman of the subcommittee) presiding.
    Mr. Faleomavaega. The Subcommittee on Asia, the 
Pacific<greek-l>, deg. and the Global Environment hearing will 
come to order, and before proceeding any further, because we 
have two votes that are pending right now and some of my 
colleagues will have to go and vote, I will give the time to my 
good friend and chairman of our Terrorism, Nonproliferation and 
Trade Subcommittee on Foreign Affairs, my good friend from 
California, Mr. Sherman. If you want to make an opening 
statement at this time, you are welcome to do so.
    Mr. Sherman. I thank you, Chairman Faleomavaega. Thank you 
for having this hearing. I think it is about the most important 
issue facing us in the Asia-Pacific region. The spread of 
nuclear weapons is perhaps the only thing that poses a national 
security threat to ordinary Americans and a threat to their 
safety and to our way of life.
    We should be prioritizing nonproliferation at a higher 
level. There is a lot of talk that we are going to reach a deal 
with North Korea because we are going to have great diplomats 
who have read all the books on how to negotiate. I do not think 
that reading a book on how to negotiate or reading 100 of them 
is the key. The key is we need more carrots and more sticks.
    The carrot that the Bush administration was unwilling to 
use is to offer a non-aggression pact. The reason that was 
given to me is the United States never does non-aggression 
pacts. The other reason is, well, we spent a lot of time 
banging the North Koreans over the head to convince them to 
stop asking for a non-aggression pact. Clearly what was at work 
in addition to just bureaucratic intransigents is a dream of 
Dick Cheney somehow overthrowing the Government of North Korea 
by force, a dream he did not want to give up. Well, he has 
left. I do not think we should dream of a successful new Korean 
War. We should instead be offering a non-aggression pact for a 
truly CVIP outcome, that is to say, complete, verifiable, and 
permanent foregoing of nuclear weapons.
    When it comes to sticks, our problem is we do not have 
enough and we are not being creative in how to get more. The 
key way to put pressure on the North Korean Government is to 
get the Chinese Government to put pressure, and the key way to 
do that is to at least begin to make Beijing believe that 
access to the United States market is contingent upon a greater 
level of cooperation on the North Korea issue, and if 
necessary, a Chinese Government willing to inform the North 
Koreans that continued subsidies from Beijing could be cut off 
if they will not move to toward a fair, verifiable and 
permanent renunciation of nuclear weapons, and abandonment and 
destruction of existing stockpiles of nuclear weapons.
    We have been unwilling to do that in part because we are 
unable to link one issue to the other. That seems to be too 
complex for the State Department. They do not like to do it in 
any sphere because it involves not only thinking about two 
things at the same time--our trade relationship with China on 
the one hand, our concern with North Korean weapons on the 
other--but it involves telling one part of the State Department 
that their priority may have to be tied to some other priority 
in the State Department.
    The other reason we do not do it is because of the total 
power of importers. The real money that is made in this 
country, the big money, the enormous money is to make something 
for pennies in China and sell it for dollars in the United 
States, and with that money comes power, the power to prevent 
the further accrual of the money, and for that reason it is not 
permissible in Washington to talk seriously about hinting to 
Beijing that their access to the United States market could be 
limited for various reasons, not the least of which is an 
insistence on greater pressure on the North Korean Government.
    The solution that the establishment has, that the State 
Department has to this concern is to parade diplomats in front 
of us, telling us that China is very helpful, do not worry 
about it, we are just a day or a week or a month away from a 
non-nuclear North Korea. I have been hearing that for more than 
8 years. It is a lie. It is a lie that gets Congress to stop 
asking questions that they do not want to hear.
    The fact is that North Korea still has nuclear weapons. The 
fact is the problem has not been solved, and the fact is that 
China's level of help has been insufficient, and it is about 
time that we take a look at ways to get both more carrots and 
more sticks and not settle for constantly being told that we 
should not worry about the problem.
    I yield back.
    Mr. Faleomavaega. I thank the chairman of our Subcommittee 
on Nonproliferation for his opening statement, and I would 
welcome his return since I am sure that he will raise some 
additional questions with some of the most distinguished 
witnesses and guests that the subcommittee has invited to 
testify this afternoon.
    I will begin with my opening statement, and proceed 
accordingly. Without objection, the statements that have been 
submitted by our witnesses this afternoon will all be made part 
of the record. If there are any additional documents or 
materials that each of our witnesses want to submit to be made 
part of the record, you are welcome to do so.
    Never in our Nation's history have we faced a more pressing 
need to remake America at home and abroad, and who knoweth, as 
the good book says, whether or not President Obama has been 
raised up for such a time as this. What we do know is that, 
last November, America voted for change because America 
recognizes that these are no ordinary times. These are 
extraordinary days, and I commend the Obama administration and 
Secretary of State Hillary Clinton for sending a tremendous 
signal of the importance of the Asia-Pacific region to U.S. 
interests.
    By choosing to visit the Asia-Pacific in her first trip 
abroad, Secretary Clinton obviously is renewing America's 
stature and leadership in a region of the world the U.S. has 
too long neglected, in my humble opinion. I wish Secretary 
Clinton God speed, especially as she takes on the challenge of 
remaking United States foreign policy in North Korea.
    While diplomatic, tough-minded intelligent diplomacy will 
be the keystone of our new U.S. foreign policy, in her 
statement before the Senate Foreign Relations Committee as a 
nominee of the Secretary of State, Senator Clinton stated that 
we must use, and I quote, ``smart power,'' meaning the full 
range of tools at our disposal--diplomatic, economic, military, 
political, legal and cultural--picking the right tool or a 
combination of tools for each situation.
    I agree with this approach believing, like Secretary 
Clinton, that we must, and I quote from her statement, ``fire 
on all cylinders to provide forward-thinking, sustained 
diplomacy in every part of the world.''
    In the case of North Korea, in 2003, six governments, 
including the United States, North Korea, China, South Korea, 
Japan and Russia, began talks aimed at ultimately eliminating 
North Korea's nuclear programs. In 2007 and 2008, three 
agreements were reached; two by the six parties and one by 
Assistant Secretary of State Christopher Hill and North Korean 
Deputy Foreign Minister Kim Dae Jung.
    The agreements constituted a deal to shutdown North Korea's 
plutonium production facilities in exchange for United States 
concessions, including removing North Korea from the sanctions 
provision of the U.S. Trading with the Enemy Act, removing 
North Korea from the United States list of state sponsors of 
terrorism, and the promise of energy assistance to North Korea.
    At the end of the Bush administration, North Korea had 
completed about 80 percent of the disablement, and the United 
States, China, South Korea and Russia sent North Korea about 
800,000 tons of the 1 million tons of energy assistance it 
promised. Although Japan is withholding its quota of about 
200,000 tons of heavy oil due to the lack of progress in 
settling the issue of North Korea's kidnapping of Japanese 
citizens, the Bush administration did remove North Korea from 
the sanctions provisions of the terrorism list. However, North 
Korea now says it will only complete disablement when it 
receives the remainder of energy assistance.
    As Mr. Harrison, our first witness this afternoon, will 
testify, this is a very important turning point in United 
States-North Korea relations for, as he states, and I quote:

        ``For the past 18 years, the United States has offered 
        the normalization of relations with North Korea as a 
        reward for denuclearization. Now North Korea is asking 
        us to reverse the sequence to pursue denuclearization 
        through normalization.''

    The purpose of today's hearing is to discuss where we go 
from here considering that North Korea is also suggesting that 
any final denuclearization agreement with the United States 
must consider the future military presence in and around the 
Korean Peninsula. Also, North Korea is signaling that future 
denuclearization talks deal only with the dismantlement of the 
Yongbyon installation rather than with nuclear weapons.
    With North Korea's threat of a military confrontation with 
South Korea, and its refusal to completely denuclearize, the 
timeliness and relevance of today's hearing is underscored by 
North Korea's announcement less than 2 weeks ago that it is 
nullifying all inter-Korean agreements and reportedly seeking 
to test-fire an intercontinental ballistic missile.
    As Secretary Clinton noted this past Tuesday at a press 
conference held in the White House, and I quote from her:

        ``We are hopeful that some of the behavior that we are 
        seeing coming from North Korea in the past few weeks is 
        not a precursor of any action that would up the ante or 
        threaten the stability and peace and security of the 
        neighbors in the region. North Korea has to understand 
        that all of the countries in East Asia have made it 
        clear that its behavior is viewed as unacceptable.''

    Given these very serious developments, what tools should 
the Obama administration use to improve United States-North 
Korean relations? Should greater emphasis be placed on economic 
aid, human rights, and separate negotiations with North Korea 
over a Korean peace treaty to replace the 1953 armistice 
agreement? Is any of this possible given the Bush 
administration's failure to focus on North Korea's highly 
enriched uranium program or nuclear collaboration with Iran and 
Syria? What succession contingencies do we have in place given 
the recent health concerns of Kim Jong Il?
    However we proceed, let me conclude my opening statement 
with two clear convictions. First, the United States-South 
Korea alliance stands firm in its commitment to peace and 
prosperity on the Korean Peninsula. Secondly, North Korea 
should come back to the negotiating table immediately and 
reestablish its inter-Korean cooperative projects with South 
Korea to continue progress aimed at easing tensions and 
fostering mutual dialogue.
    I attended recently an Asia-Pacific parliamentary forum 
that was attended by several of our Asian countries' 
parliamentarians, and a resolution was proposed--calling upon 
North Korea to denuclearize the country in terms of its ability 
now to develop nuclear weapons. The only point that I raised at 
the time of the forum was that we have been trying for years in 
the Six-Party Talks to get North Korea to dismantle its 
nuclearization program, yet North Korea is already a member of 
the nuclear club. North Korea already has between four to six 
nuclear weapons, and now North Korea is about to test its 
capability in producing an intercontinental ballistic missile. 
I just wanted to add that as an observation for our witnesses 
that will be testifying this afternoon.
    I note also with interest that we have Ambassador Charles 
Pritchard who will be testifying here with us, and I understand 
you will be leaving later this afternoon to meet with your son, 
Major Jack Pritchard, who is currently on tour in Iraq, and 
certainly want to wish you, Ambassador Pritchard, and your 
family all the best as you are about to meet your son in 
Wiesbaden, Germany.
    Our first witness that we have this afternoon is no 
stranger, I am sure, to all of us for those of you who are 
experts in dealing with Asia-related issues, and this is none 
other than--I say that it is my honor to have met with him 
previously to the meeting--is Mr. Selig Harrison.
    Selig Harrison is a senior scholar of the Woodrow Wilson 
International Center for Scholars and currently director of the 
Asia program at the Center for International Policy. He has 
specialized in South Asia and East Asia for some 58 years as a 
journalist and scholar and is the author of five books, and 
published countless numbers of articles that relate to our 
political or foreign policy relationships with the countries of 
South Asia as well as Southeast Asia.
    He has visited North Korea about 11 times, most recently in 
January of this year, and also visited Iran in June 2007 and 
February and June of last year. His articles on Iran following 
his visits there in 2007-2008 included ``Iran is America's Best 
Hope for stability in the Gulf.'' I think we need to read that 
one, Mr. Harrison.
    His reputation for giving early warnings on foreign policy 
crises was well established during his career as a foreign 
correspondent. He made a prediction some 18 months before the 
war--the Indo-Pakistan war--and caused some problems there with 
many of the editors, wondering how in the world has Mr. 
Harrison made such a prediction so accurate, and the editors 
were complaining about why were they not informed about this 
prediction that Mr. Harrison made before the Indo-Pakistan war 
came about.
    More than a year before the Russians invaded Afghanistan, 
Mr. Harrison again warned of this possibility in one of his 
frequent contributions to the influential journal, Foreign 
Policy. During the Soviet occupation of Afghanistan, he was one 
of the earliest to foresee that the Soviet Union would withdraw 
its forces and become a leading advocate of a two-track policy 
designed to promote a withdrawal through a combination of 
military pressure and diplomatic incentives.
    One of my predecessors who served previously as chairman of 
this subcommittee, my good friend, a former Congressman from 
the State of New York, Mr. Stephen Solarz, made this 
interesting observation concerning Mr. Harrison, and I quote 
this, in February 21, 1989, 1 year after the withdrawal, and 
this is what Mr. Solarz said: ``With each passing day his 
reputation,'' Mr. Harrison's reputation, ``as a prophet is 
enhanced. I am sure it wasn't easy for Mr. Harrison, in the 
face of a phalanx of analysts, academicians, and others who 
were all saying the opposite, to maintain his position, but he 
had the intellectual fortitude and moral strength to stick by 
his guns, his analytical guns, and I think he deserves credit 
for that.''
    And with that, Mr. Harrison, we will welcome your 
prediction as what will happen in the Korean Peninsula in the 
coming months and for next year.
    At this time I would like to turn the time now to Mr. 
Harrison for his presentation.
    [The prepared statement of Mr. Faleomavaega 
follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 STATEMENT OF MR. SELIG S. HARRISON, ASIA DIRECTOR, THE CENTER 
                    FOR INTERNATIONAL POLICY

    Mr. Harrison. Thank you very much, Mr. Chairman. It is 
wonderful to have a chairman who actually reads my CV. As you 
said, for the past 18 years the United States has offered the 
normalization of relations as the reward for denuclearization. 
Now North Korea is asking us to reverse the sequence, to pursue 
denuclearization through normalization.
    But the issue dominating discussion of North Korea in 
Washington is, of course, whether North Korea will ever really 
denuclearize. So I decided before going to Pyongyang this time 
to frame my discussions there in a way that would help to 
clarify this issue. I submitted a detailed proposal to the 
North Koreans in advance. Here is what it was.
    North Korea would surrender to the IAEA the 68 pounds of 
plutonium already declared. The U.S. would conclude the peace 
treaty, that you mentioned, ending the Korean War. We would 
normalize diplomatic and economic relations with North Korea, 
put food and energy aid on a long-term basis, and support 
large-scale multilateral credits for rehabilitation of the 
North Korean economic infrastructure, and as I said, they 
would----
    Mr. Faleomavaega. Can we just suspend for a minute? Your 
microphone is still not on. Something is wrong with the 
electronics here. Can you try the other microphone next to you, 
see if that might work? Does it work?
    We will need to suspend the hearing.
    [Off the record.]
    Mr. Harrison. Well, that sounds like something.
    Mr. Faleomavaega. My apologies, Mr. Harrison.
    Mr. Harrison. Not at all. As I said, I submitted this 
proposal to the North Koreans to smoke them out. And the answer 
I got was categorical and explicit. I was told that their 
declared plutonium has ``already been weaponized,'' but they 
said they are ready to rule out the development of additional 
nuclear weapons in future negotiations. All four of the 
officials I met emphasized two key themes.
    First, North Korea wants friendly relations with the United 
States and hopes that the Obama administration will initiate 
moves toward normalized relations. Vice President Kim Yong Tae 
said:

        ``If the Obama administration takes its first steps 
        correctly and makes a political decision to change its 
        DPRK policy, the DPRK and the U.S. can become intimate 
        friends.''

    I asked General Ri Chan Bok of the National Defense 
Commission whether United States forces could stay in Korea 
when and if relations are normalized. As you know, the 
traditional North Korean position has been that the United 
States forces have to get out, and here is what he said: ``When 
the time comes we can discuss that.''
    The second thing emphasized was that North Korea will not 
commit itself now as to when it will give up its nuclear 
weapons. Here are the words of nuclear negotiator Li Gun: ``We 
are not in a position to say when we will abandon nuclear 
weapons. That depends on when we believe there is no U.S. 
nuclear threat. We must proceed step by step, action for 
action.''
    Now, all of those I met said that North Korea has already 
weaponized the 68 pounds of plutonium acknowledged in its 
formal declaration, and that therefore the weapons can't be 
inspected since they are military.
    Sixty-eight pounds, as you know, is enough for four or five 
nuclear weapons, depending on the grade of plutonium, the 
specific weapons design and the desired explosive yield. What 
this means is that the objective of the Six-Party negotiations 
and United States negotiations directly with North Korea, which 
I think have to be the heart of our policy, should now be to 
cap, to cap the declared North Korean arsenal at four or five 
weapons by completing the disabling of the Yongbyon reactor to 
which you referred now in progress, and by negotiating the 
terms for completely dismantling the reactor which, of course, 
has been envisaged in the denuclearization scenario now being 
negotiated.
    In return for dismantlement, North Korea wants a binding 
commitment to complete the two light-water reactors for 
electricity promised under the 1994 agreed framework. That is 
sure to stir up controversy in Washington, but in Pyongyang it 
seems logical to the North Korea, first, because the reactors 
were promised; second, because nearly $3 billion has already 
been spent on them to the build the infrastructure at Kumho, 
and above all, because North Korea suspended its nuclear 
weapons program from 1994 until 2002, in return for that 
promise.
    North Korea suspended its nuclear weapons program from 1994 
until 2002 in return for the promise of light-water reactors.
    Well, to sum up, North Korea had adopted what to us will be 
a much harder line than before, and the question is why. Some 
say it is just a bargaining posture to strengthen its position 
with a new administration. But I would emphasize two other 
factors.
    First, Kim Jong Il did have a stroke. I learned from 
several well-informed sources that he has a greatly reduced 
work schedule. He has turned over day-to-day management of 
domestic affairs to his brother-in-law, Chang Song Taek, and 
foreign affairs and defense policy is now largely in the hands 
of hawks in the National Defense Commission which, of course, 
means a tougher nuclear policy.
    A second factor of great importance, which is not mentioned 
often but I think is very important, is the fundamental change 
in the posture of South Korea toward the North under its new 
President, Lee Myung Bak. President Lee has dishonored the 
North/South Summit Declarations of June 2000 and October 2007. 
He says he will ``review them but is not bound by them.'' This 
was a disastrous historic mistake.
    What Lee Myung Bak has done is to revive North Korean fears 
that South Korea, the United States and Japan want regime 
change and absorption because, of course, the summit 
declarations envisaged co-existence and progress toward 
confederation which is, of course, the opposite of a policy of 
absorption.
    So to make progress in the nuclear negotiations and avoid a 
revival of military tensions in the Korean Peninsula it is 
necessary for both the United States and South Korea to 
reaffirm their categorical, unqualified support of the June 
2000 and October 2007 summit declarations. I really think that 
is the most important step that is necessary to get this whole 
situation back on track. That means supporting co-existence and 
eventual confederation and giving up hopes of promoting a 
collapse and absorption of the North by the South, and, of 
course, all kinds of things are in the air, whether they are 
balloons being thrown into North Korea, all sorts of other 
things that indicate there are forces who have not given up 
those goals.
    In conclusion, the bottom line in shaping North Korea 
policy is that continued United States engagement with North 
Korea looking to normalization will strengthen the pragmatists 
in Pyongyang in their continuing struggle with military 
hardliners, and we must remember this is not a monolithic 
regime. You have two contending points of view and that is the 
central fact of life that we face in North Korea.
    If we fully normalize relations, we are more likely to get 
leaders there who will give up their nuclear weapons than if we 
do not engage. In the meantime, if the United States can deal 
with major nuclear weapon states like China and Russia in East 
Asia, can tolerate a nuclear armed North Korea that may or may 
not actually have the nuclear weapons arsenal it says it has, 
it may be bluffing. Just in case it has learned to miniaturize 
nuclear warheads sufficiently to make long-range missiles, the 
new administration, in my view, should couple a resumption of 
denuclearization negotiations, Six-Party Talks plus direct 
talks with a revival of the promising missile limitation 
negotiations that the Clinton administration was about to 
conclude when it left office.
    I pushed the idea of missile negotiations hard several 
times in my initial conversations in Pyongyang. At first Li 
Gun, with whom I spent the most time, a total of 6 hours, did 
not have instructions on this issue, it was quite clear. But 
after overnight consultations he said, ``If we can have nuclear 
negotiations, why not missile negotiations?''
    So I think the short-term first step of the Obama 
administration dealing with North Korea should be to try to put 
the resumption of the Clinton period missile negotiations on 
the table again, and at a broader level it should work with 
South Korea to reaffirm support for the summit declarations of 
2000 and 2007 because only through that reaffirmation can a 
real policy of rolling back regime change be implemented.
    Thank you.
    [The prepared statement of Selig S. Harrison 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Mr. Harrison. I have some 
questions I want to ask. This is a new development since your 
meeting with four of the top leaders there in Pyongyang last 
month. I just wanted to ask you if you had a chance in sharing 
this information with some of the leaders of South Korea.
    Mr. Harrison. I am sorry. Have I shared what I found out in 
North Korea?
    Mr. Faleomavaega. Yes.
    Mr. Harrison. What I found out in North Korea?
    Mr. Faleomavaega. Yes.
    Mr. Harrison. Yes. Yes, I have discussed with some Embassy 
people what I found out.
    Mr. Faleomavaega. We all know that for 6 years now that 
negotiations have taken place in the Six-Party Talks, and in 
that period of time it seems to me that was when North Korea 
had the capability or now has in its possession four to six 
nuclear weapons. I never could understand clearly when they 
were tested. I believe it was in October 2006. Does North Korea 
definitely have nuclear weapons capability?
    Mr. Harrison. I do not think we know. They say they do. 
North Korea's great concern is to deter us from what they fear 
will be a United States preemptive attack, and they are 
particularly concerned about a nuclear attack because, although 
we talk about their nuclear capabilities, we have nuclear 
weapons in areas near North Korea, even though we say we took 
them out of South Korea.
    So from the North Korean point of view, their big task is 
to deter us from any military adventures in Korea. So their 
military wants us to believe that they have nuclear weapons. 
They are quite happy to have us think that they might even have 
a uranium program, which we could discuss later, which I think 
is a greatly exaggerated concern on our part. So the North 
Korean armed forces want to keep us thinking that they have a 
uranium program, whether they do or not, and I do not think 
they do, a weapons program, and they certainly want us to think 
that they have a plutonium nuclear weapons capability.
    I think we have to base our policy on the presumption that 
they do have some level of weapons development. We do not know 
what operational military form they are in a position to use 
nuclear weapons with, but we do know they have conducted a 
test. Whether that test was simply not a very successful test 
or was deliberately kept at a low level for various reasons in 
connection with miniaturization for warheads, as some people 
have said, we do not know.
    So I certainly do not pretend to know. I think our policy 
has to be based on worst case assumptions. We have all kinds of 
capabilities in the vicinity of North Korea that would make 
their use of nuclear weapons very self-defeating from their own 
point of view because we are right there to retaliate in a big 
way.
    So I think the short answer to your question is we do not 
know. U.S. intelligence accepts the idea that they have a 
nuclear weapons capability. What that means, they do not 
define, the intelligence community does not define. That is 
why, of course, there is so much interest in a possible missile 
test which, by the way, I do not see any clear evidence of. I 
mean, this alarm about the missile test is not backed up by 
very substantial intelligence yet although every day it gets a 
little bit more convincing, but certainly the North Koreans in 
the past have often tried to make us think they were going to 
do something to get our attention, and to make sure that we do 
not forget they are there.
    Mr. Faleomavaega. Can you give us your sense of insight 
about the time when Madeleine Albright was hosted by Kim Jong 
Il, and during the Clinton administration? Do you think there 
were positives that came out of that dialogue or that meeting 
to the point where our Secretary of State was hosted by Kim 
Jong Il in North Korea?
    Mr. Harrison. Oh, yes. I think that there is no question 
that the Clinton administration made tremendous progress with 
respect to North Korea. As you know, there was no production of 
fissile material from October--from June 1994 until the Bush 
administration abrogated the 1994 agreed framework which opened 
the way for North Korea to resume its plutonium production. It 
gave the hawks in North Korea the opening they wanted. But as 
far as the Clinton administration was concerned, they had made 
steady progress, and it is a great tragedy, in my view, that 
Mr. Clinton did not go to North Korea to finalize some of the 
agreements that were then pending, including missile agreement.
    Secretary Albright's visit had been very successful. Her 
accounts of the visit were very encouraging in terms of her 
reaction to Kim Jong Il as somebody you could talk to at a 
rational level. Unfortunately, Mr. Clinton has said in his 
memoirs that Mr. Arafat had given him the impression that he 
was ready for some serious quick action on the Middle East, and 
Mr. Clinton concluded that he should give that priority over a 
North Korea trip. It was a very difficult time with the Florida 
recount going on and the very last days of his administration 
approaching.
    So to answer your question, yes, the Albright visit was a 
high point, and we can get back to that kind of a relationship 
with North Korea. We have to start with the U.S. Government 
arranging for the DPRK Symphony Orchestra to come to the U.S. 
to reciprocate the visit of the New York Philharmonic to North 
Korea. The North Koreans mentioned that. They said the next few 
months may be difficult but let us do the people to people 
stuff.
    So, I think if we are serious about getting to 
denuclearization we can, starting with small things like the 
DPRK Symphony Orchestra's trip to the U.S., other people to 
people exchanges, the resumption of direct talks, and the Six-
Party Talks. I think the North Koreans are very much in need of 
normalized relations with the United States and Japan, and a 
restoration of positive relations with South Korea for economic 
reasons. But there are political factors, nationalism, pride, 
and the change in the internal balance of forces there, which I 
mentioned before, the advent of the hard-line group in the 
armed forces to a position of greater influence. These are 
holding things up, but I do believe we could get back to a very 
positive track with North Korea if that is our objective and if 
we are patient.
    Mr. Faleomavaega. I have always wondered why we had to have 
six countries negotiating with North Korea when my 
understanding all North Korea wanted to do was to negotiate 
with the United States only. Can you offer any reasons why we 
had to have six countries negotiating with one country?
    Now we have Japan demanding that this kidnapping issue be 
part--which is totally unrelated to the nuclearization threat 
or things that relates to the very issue why we are dealing 
with Korean.
    Mr. Harrison. I do not think the United States should let 
the Six-Party process get in the way of progress developed 
through bilateral negotiations which, as you said, is the main 
ball game because North Korea fears United States preemptive 
action, conventional or nuclear, and they feel that we are 
still number one despite our many problems, and therefore they 
need a relationship with us to legitimize their relationship 
with others.
    So I think that bilateral negotiations have to be the main 
arena, but the Six-Party process is valuable if we do not allow 
it to get in the way of our own objectives and Christopher Hill 
did not, he went forward with the removal of North Korea from 
the terrorist list despite Japan's objections.
    So up until now, in the latter days of the Bush 
administration when they got religion on this whole thing we 
have been pursuing a sensible combination of bilateral and 
multilateral negotiations. There are many advantages to keeping 
the Six-Party process in train because many of the things we 
have to do cost money, and the denuclearization process, to the 
extent it can be made multilateral, can be sustained 
financially, and without the Six-Party process this would be 
much more difficult. So, I think we should keep the Six-Party 
process going, recognizing that it is an auxiliary to what has 
to be a basically positive U.S. bilateral approach.
    Mr. Faleomavaega. You had mentioned that the summit 
declarations that were made by President Lee's predecessors, I 
think it was Kim Dae Jung and President Mo, you indicated in 
your statement that there could have been a better relationship 
created by the current administration, South Korea with that of 
the Kim Jong Il's regime. Do you think it can be corrected in 
any way?
    Mr. Harrison. I think if the United States has a clear 
sense of its own direction and makes very clear to South Korea 
that it is deeply dissatisfied with the repudiation of the two 
summit declarations, and would like to see South Korea return 
to a policy that declares its support for those declarations, I 
think things can get back on track. But you know, President Lee 
was in a political campaign and it is understandable that he 
wanted to differentiate his position from that of his 
predecessor, so he talked about bargaining a little tougher 
with North Korea. But he went far beyond that when he became 
the President because it is not just a symbolic thing.
    The basic issue in the Korean Peninsula is whether there is 
going to be a peaceful process of confederation and eventual 
long-term unification, or whether South Korea as the more 
populous and stronger economy is going to absorb North Korea, 
and the dominant feelings in South Korea were during the period 
preceding Kim Dae Jung to work for absorption.
    When Kim Young Sam became President and Kim Il Song died, 
Kim Young Sam's policy was to send subversive intelligence 
missions into North Korea to try to destabilize it, and the 
judgment of the South Korean intelligence community was that 
you could overthrow the North Korea regime because the great 
leader was the cement that held everything together.
    Kim Dae Jung represented a policy which was that that would 
be too expensive, and he sold the business community and the 
bureaucratic and the political and military leadership in South 
Korea, he created a consensus that for South Korea it would 
make much more sense not to do what had happened in Germany, 
which would be much too expensive, but to go for a long-term 
policy of coexistence, gradually bringing the two systems 
closer together, doing everything feasible to avoid a collapse 
in North Korea so that such a process could continue, and his 
policy was pragmatic, realistic. It was not--the word 
``sunshine'' makes it sound like a goody-goody soft policy. It 
was a very pragmatic policy rooted essentially in the economic 
realities of what absorption would cost South Korea.
    So when Kim Dae Jung became the President he reversed the 
policies of the Kim Young Sam administration. He replaced the 
top people in the intelligence agencies, and he pursued a 
policy of coexistence, and the North Koreans considered that. 
They were very surprised that this had happened. They never 
thought this would happen. They were committed to the idea that 
South Korea was committed to absorbing them, and they were in a 
permanent confrontational relationship.
    Kim Dae Jung and Roo Moo Hyun strengthened the realists, 
the pragmatists in North Korea. Lee Myung Bak in one stroke has 
undermined everything that was accomplished, and I hope very 
seriously that South Korean public opinion will increasingly 
compel him to do more than make little speeches about how we 
are going to talk to North Korea and be nice to North Korea. 
The essence of the matter is repudiating the concept of 
absorption and collapse through reaffirmation of the 2000 and 
2007 summit declarations.
    Mr. Faleomavaega. What was your reading when you, as you 
mentioned earlier, in the middle of the Six-Party Talks, North 
Korea invites the New York Philharmonic Orchestra to come and 
have a concert. Does it sound like they are really trying to 
reach out for something?
    Oh, and by the way, I think they also want to send an 
orchestra to the United States to reciprocate.
    Mr. Harrison. Exactly, and they urged that that be done as 
soon as possible. Well, you see, there are two camps in North 
Korea. This was the main message in my testimony. There are 
reasonable pragmatic elements in the leadership who believe 
that without opening up to the United States--getting 
normalization with the United States, North Korean's economic 
survival will be in jeopardy.
    There are more traditional types and hardliners who have 
argued since all this began in 1991, when they first began 
reaching out to us, the hardliners have said you guys are very 
naive. The Americans, the Japanese and the Lee Myung Baks of 
South Korea will never accept us. They want to overthrow us, 
and they are just waiting for the opportunity.
    And so now that Kim Jong Il has had a stroke that tension 
within the leadership there is even stronger, but there is no 
question that there is a very strong view in important sections 
of the North Korean leadership that were encouraged and 
strengthened during the Clinton period, and undermined during 
the Bush period, that they must have an opening to the United 
States. It is not just something they want. They need it to 
make the regime stable, to get multilateral loans so they can 
rebuild their infrastructure. This is their number one 
priority.
    But the armed forces say, Look, you are very naive. These 
guys have nuclear weapons all over the Pacific very near us. 
They have cruise missiles; they have all kinds of things. How 
do we know what they might have hidden in South Korea? And so 
the armed forces who are basically in the dominant position 
there, they need Kim Jong Il because he is the link with Kim Il 
Song, but the armed forces ever since the death of Kim Il Song 
had been the most powerful force in North Korea, they dictate 
the security policy of North Korea.
    Kim Jong Il is a survivor. He wants to stay on top. He is 
number one. He manipulates all the different forces and 
factions in North Korea very, very cleverly, but he has to have 
the consent of the armed forces for his policies and that 
consent requires acceptance of their assessment that they must 
have a deterrent, they must deter the United States, either 
make us believe they have nuclear weapons or have them.
    Mr. Faleomavaega. So I sense from your testimony, Mr. 
Harrison, no matter what negotiations go on everything seems to 
be based on Kim Jong Il's good health or lack of good health. 
In terms of what is ever going to happen to the future of North 
Korea, it is going to be based on whether Kim Jong Il is going 
to live long enough.
    Mr. Harrison. That is not my view at all.
    Mr. Faleomavaega. Can you elaborate? You have mentioned 
about his health as a factor, a basic factor.
    Mr. Harrison. I certainly believe that Kim Jong Il's death 
would not mean a collapse of North Korea, and if the United 
States has been pursuing up until that time and continues to 
pursue serious efforts to normalize relationships, that will 
strengthen the pragmatic elements in North Korea who will 
continue to be there even if Kim Jong Il should die.
    North Korea's stability does not depend on Kim Jong Il. 
They have the National Defense Commission, a group of generals 
who would have to hang together or hang separately, as Ben 
Franklin said, and so the incentive to stay together would be 
very strong. It is possible that things will fragment, 
instability will develop, but basically North Korea is not a 
highly--just one edifice that is going to fall down. The nine 
provinces of North Korea, the communist parties of each of 
those provinces are very strong, and you have a great deal of 
decentralization that has taken place in recent years.
    So I did not mean to give the impression that the death of 
Kim Jong Il, which by the way there is no reason to anticipate, 
he recovered from his stroke, and he is functioning. He has met 
the Chinese. He just does not have the day-to-day input and he 
can be--his influence over the hardliners is not as great, but 
I certainly do not think that scenarios of a collapse should 
be--I think the scenarios of a collapse in North Korea are not 
realistic.
    We do not know what will happen over time. We do not know 
how long if he were to die the leadership would stay together, 
but there is a structure there now and there is a 
decentralization that has already occurred, and I think we have 
to think in terms of dealing with a North Korea that is going 
to be there as long ahead as we can see.
    To the extent that we support elements who want to promote 
a collapse, and threaten the North Koreans by leaking stories 
about military scenarios, about what we are going to do the 
minute there is a slightest change in North Korea, we just feed 
all the destructive hard-line forces in North Korea.
    Mr. Faleomavaega. Mr. Harrison, I had about 200 other 
questions I wanted to ask, but I want to welcome personally my 
good friend, the senior ranking member of our subcommittee, the 
gentleman from Illinois, Mr. Manzullo, if he has an opening 
statement he would like to make, and also welcome our good 
friend from California, member of the subcommittee, Mr. 
Rohrabacher, and Mr. Ed Royce also from California.
    Mr. Manzullo.
    Mr. Manzullo. Thank you, Mr. Chairman, I would ask leave to 
place my opening statement in the record.
    Mr. Faleomavaega. Without objection.
    [The prepared statement of Mr. Manzullo 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Manzullo. And also an article by Mitchell Reiss and 
Robert Gallucci from Foreign Affairs made a part of the record 
also.
    Mr. Faleomavaega. Without objection.
    Mr. Manzullo. I am sorry I was late. I was over in the 
Financial Services Committee trying to solve the world's 
financial problems. Now we come over here.
    Let me ask you a question. If you do not feel comfortable 
answering it, please tell me and I will not hold it against 
you, is that fair enough?
    Mr. Harrison. Sure.
    Mr. Manzullo. Some have said that Kim Jong Il had made 
agreements and concessions with the Bush administration through 
the tremendous efforts of Chris Hill working toward 
denuclearization. Some have said that sensing President Obama's 
popularity in the polls, and the fact that there would be a 
complete change in the Presidency in parties and perhaps 
philosophy, that Kim Jong Il pulled back from cooperating with 
the Bush administration hoping to get ``a better deal'' with 
the Obama administration. Again, this is not by way of 
criticism of the Obama administration. Would you care to 
comment on that observation?
    Mr. Harrison. Well, I think that what happened in the last 
days of the Christopher Hill negotiations was that the North 
Koreans had made considerable concessions leading to the 
disabling of the Yongbyon reactor, but we were pushing a line 
of trying to get verification access that the North Koreans 
felt had not been agreed upon, which is true, was not in the 
scenario that had been agreed upon when these negotiations set 
forth. Verification was to come in the third phase, and in my 
conversations there they discussed the terms for getting to 
verification.
    So, I think that, sure, they certainly were all aware that 
a new administration was about to begin, but I think that in 
terms of the objective realities of those negotiations they did 
not violate any undertakings by not agreeing to our 
verification demands. They felt that those demands were not 
required of them in terms of what had been agreed upon as to 
the procedures, and that is true. They had not been.
    So, I do not know whether I am answering you clearly or 
not. I guess my answer would be that it was kind of a mix of 
things. They were in no way obliged to go forward with 
verification, and they did not.
    Mr. Manzullo. My understanding is that verification, some 
type of verification besides ``I won't do it again'' or ``trust 
me'' was tied to North Korea being removed from the state 
sponsors of terrorism list, and that in fact did occur. They 
were removed from the list much to the voices of many people in 
opposition in this country.
    Mr. Harrison. I think that is a very perceptive question. 
It gets to the heart of what was a very complicated situation 
in the last phases of the Bush administration. Diplomacy, 
diplomats like to keep ambiguity, and there was ambiguity on 
both of the issues you are referring to. We did not commit, in 
all the documents prior to this last phase of negotiations, as 
to when we would take them off the terrorist list, and they did 
not commit as to when they would get into verification. It was 
not required until the third phase under the original scenario.
    So what happened was Chris Hill; I think he made two 
judgments. I think he did a very effective job with the brief 
he had and the situation he faced in the bureaucracy in 
Washington. I think he did an admirable job of moving things 
along.
    First, I think he concluded that the position that the 
Clinton administration had adopted, taking them off the 
terrorist list was justified in terms of their behavior since 
their terrorism ended a long time ago, and he tried to use it 
to get them to do something they were not committed to doing; 
namely, verification before the third phase because he had 
people in Washington telling him you have got to get them to 
agree to verification because otherwise it is going to look 
like we have just done a--we have been patsies.
    Well, he did his best. He did something that I think was a 
step forward in the whole process anyway. I mean, getting them 
off the terrorist list has kept the game open because that has 
given the pragmatists in Pyongyang something to hang on to. 
They got something out of negotiating.
    So, there is an argument in Pyongyang, they got politics 
too, you know, there is an argument in Pyongyang for keeping 
the process going because we took them off the terrorist list, 
and at the same time the pragmatists did not win the argument 
that some verification compromise should be made in return for 
that, just what Hill wanted, of course, because Kim Jong Il had 
had a stroke, and the day-to-day control of all this had 
shifted during the months when this was going on. The stroke 
was in August.
    And one very interesting thing, you know, Hill was trying 
to carry this thing forward and he got--he wanted to go to 
Pyongyang in the critical stage of this, and the hardliners did 
not want him to come, and the pragmatists worked out a 
compromise which was, okay, he will not come as a state guest. 
We will put him in the Potonggang Hotel which is one of the 
hotels in Pyongyang, and he will not be a state guest but he 
can stay in the hotel at his expense, U.S. Government's 
expense, and come over to see us and talk to us. That was the 
internal compromise in North Korea. So he went there and did 
not get what he had hoped he would get.
    I have given you a long answer but you have raised a very 
tricky question and a very raw nerve in the whole process, and 
I am not quite sure what Chris Hill would have said if he were 
sitting here, but that is the way I perceive it.
    Mr. Faleomavaega. The gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I am sorry I was a 
little late in getting here. We did have votes on the floor, 
and Mr. Harrison, I think that we have a different way of 
looking at the world. From listening to your testimony today, 
it seems you are telling us that peace and progress in the 
world will come through accommodation with evil and tyrants and 
gangsters and murders and all the other scum of this world that 
prey upon decent people. Accommodations with them is going to 
make it a better world?
    Would not what you are proposing today would have left the 
Soviet Union in power had we just simply decided that we are 
going to have an accommodation rather than seeking change 
within the Soviet system? Correct me if I am wrong, that is my 
interpretation of what you are telling us.
    Mr. Harrison. I did not say anything, Congressman 
Rohrabacher, about a better world, and I do not like the North 
Korean regime anymore than you do.
    My testimony, if your voting schedule permitted you to hear 
it----
    Mr. Rohrabacher. Yes.
    Mr. Harrison [continuing]. Was that we should be capping 
their nuclear program rather than allowing it to grow beyond 
the four or five that the Bush administration's unrealistic 
policies had given us because we do not want North Korea to 
have nuclear weapons, precisely because we know that it is a 
regime that we have not made our peace with yet.
    Mr. Rohrabacher. I guess what I was referring----
    Mr. Harrison. So I do not think I said anything about 
nirvana developing from negotiations----
    Mr. Rohrabacher. I think I was referring to your statement 
that in order to deal with them that they are going to have to 
be assured that we do not want to change their government, that 
we do not want to have a regime change in North Korea; that we 
are not going to have progress as long as they have that fear.
    I believe the United States Government should put 
dictatorships in fear that they will be replaced by democratic 
government. I think that is part of our obligation as free 
people is to back up the people of North Korea and Burma and 
other type of dictatorships. Instead we have--have we not 
subsidized North Korea these last 10 years in terms of fuel and 
food? Without that, perhaps they would have collapsed on their 
own.
    Mr. Harrison. North Korea has changed a lot in the last 10 
years. I have been going there since 1972. And when I went 
there in 1972, the first of my 11 visits, it was a very 
monolithic dictatorship. Now you have a great deal of 
marketization. You have people trying to make a buck. You have 
access of information coming in from China and from South Korea 
in spite of the efforts of the regime to keep it from 
happening.
    The argument between us is not over our objective. We share 
the same values. I want to see this regime in North Korea 
evolve into something gradually closer to our concept of the 
way a society should operate, just as I would like to see 
China, and China has moved in that direction. I mean, dealing 
with China, I am sure you would have said the same thing back 
in the seventies when some of us were talking about----
    Mr. Rohrabacher. I hate to tell you this, but when I take a 
look at the liberalization in China, I do say the same things 
about China today, which is still the world's worst human 
rights abuse.
    Mr. Harrison. Well, the difference between China--you have 
what I think, I mean, you talk in tough terms, sir, but I think 
you are taking a very unrealistic view of things. You do not 
change societies, countries of 1 billion people overnight. The 
process is China has changed enormously since 1972 in the 
direction that is desirable in terms of our values, and I think 
North Korea will evolve in the direction of greater human 
rights and more open economy, more and more congruent with that 
of South Korea, more and more open to foreign influences to the 
extent that we helped open it up and let the winds of freedom 
blow in, and they are not going to blow in with a bunch of 
balloons from South Korea, or with tough rhetoric. The winds of 
freedom will get into North Korea to the extent that we engage 
them and gradually open them up as we have been doing, as we 
did very successfully during the Clinton administration. I do 
not mean that on a partisan level.
    So, I think the argument is kind of circular. We do want 
the same end result, that I can assure you.
    Mr. Rohrabacher. Well, then we do have a disagreement.
    Mr. Harrison. If your end result is----
    Mr. Rohrabacher. Thank you very much.
    Mr. Harrison. If your end result has to be that everything 
in North Korea collapses, and you have millions and millions of 
refugees going into South Korea and Japan in order to have the 
change----
    Mr. Rohrabacher. One last question. Do you think it was a 
good thing that the communist government in Germany, in East 
Germany, collapsed? Was that a good thing? And why should we 
not be trying to do for the people of Korea who deserve to be 
unified, deserve to live their lives in a modicum of decency 
and freedom, why should we not wish the same for them as we did 
for the people of Germany?
    Mr. Harrison. I think that the geopolitical factors that 
were at play then and the way in which Germany changed are very 
different from the ones in Korea.
    Mr. Rohrabacher. Okay, thank you, sir.
    Mr. Faleomavaega. I thank the gentleman from California. He 
and I also have some basic disagreements, but we always agree 
to disagree. But my good friend from California and I visited 
Pakistan at one time, and I had to hold a 45-revolver and he 
had a shotgun for fear that somebody would come and kill us, 
but Dana, thanks for your questions. But it is always good to 
have this. This is why we have a democracy like this.
    I might also note for the record that my good friend from 
Illinois participated in celebrating the 200th anniversary of 
the birth of one of our greatest Presidents today, and that is 
good old Abe Lincoln. I wish he were here to solve some of the 
problems we are faced with now.
    Mr. Harrison, I know we have been really digging into a lot 
of the questions, and if you were to put a sense of priority 
about the nuclearization issue, where would you put North Korea 
with that to Pakistan?
    Mr. Harrison. Where would I put North Korea?
    Mr. Faleomavaega. Here is the problem that I have.
    Mr. Harrison. You mean in terms of the importance? Well, of 
course, Pakistan--you mean of denuclearization?
    Mr. Faleomavaega. Yes. Here is my problem. We are all going 
after North Korea. We must denuclearize North Korea. How come 
we are not doing the same for Pakistan?
    Mr. Harrison. Well, of course, that is the point. I 
referred to Russia and China because they were neighboring 
countries that have nuclear weapons. I think it is difficult to 
talk about this without making reference to the fact that the 
United States is a nuclear weapons power, and we are not 
prepared to give up our nuclear weapons, and that is a big 
obstacle because all the hardliners in North Korea and in Iran 
can say, Why are we called upon to give up our nuclear weapons 
when they are not even willing to sit down with Russia and 
start a serious problem of global arms reductions?
    So, I think that your point is well taken. They say, the 
North Koreans say, What is about us that is different from 
Russia, China, India, Pakistan, Israel? Why are you so hung up 
on us? And I think that all these years after the Cold War we 
have to ask ourselves the question why are we so hung up on 
North Korea.
    I think it is a country to be pitied rather than feared. It 
has got tremendous problems. For historical, cultural reasons, 
and because of the fact that it was left at the end of the Cold 
War as an orphan of the Cold War with no more subsidies from 
Russia and China has to reach out to the other countries for 
support, it does not pursue its relations with us in the way 
that we would like it to do. But I think that it is a country 
that we need not fear, and that we should be able to engage 
with without being hung up on the nuclear issue that does not 
impede our relations with many other countries.
    Mr. Faleomavaega. Here is my problem, Mr. Harrison, and 
maybe you could help me. When India exploded is first nuclear 
bomb in 1974, the first thing that the prime minister of India 
did was to go to the United Nations, pleaded the case and say, 
Look, we can explode a bomb, too, but we are really serious 
about nonproliferation. So it is hypocritical for some to say 
that it is okay for some countries to have nuclear weapons in 
their possession, but it is not okay for the rest of the world 
to also have nuclear weapons. So India made its case pleading 
especially to the five nuclear powers who currently still have 
nuclear weapons, stating they are willing to dismantle or to do 
anything that will ban altogether nuclear weapons from the face 
of the earth. Since 1974, India has pleaded its case before the 
United Nations: When are we ever going to be serious about 
nonproliferation?
    So it is any wonder that you have countries like Iran, for 
fear that it might be destroyed by Israel, or North Korea for 
fear it might be destroyed by the U.S. stationed in South 
Korea, or any other country that wishes to defend itself from 
annihilation raising the ante or the parity or the equity of 
the whole idea of the argument? Are we not somewhat being 
hypocritical, the industrialized countries who do have 
possession of nuclear weapons telling the rest of the world you 
cannot do it? Does this not minimize North Korea or Iran or any 
other country for attempting to have nuclear weapons, and will 
it be then totally justifiable for the rest of the world 
community to say you cannot do this or we will destroy you? 
What is wrong with making that argument?
    Mr. Harrison. Well, you are quite right. I agree with what 
you are saying. The word ``hypocrisy'' though is not the issue. 
It is hypocritical, but the point is that it is very 
unrealistic. If we are serious about trying to prevent a 
nuclear armed North Korea, and a nuclear armed Iran, which I 
think are very desirable objectives, we have to be realistic 
about what motivates them, and what motivates them first and 
foremost is their feeling that we are applying a double 
standard, and this is the political reality, not a matter of 
hypocrisy or anything else, it is a political reality.
    I have had endless arguments with nonproliferation seminars 
and people saying, oh, we could take all our nuclear weapons 
away and they would still have theirs. I think that is very 
unrealistic, and in fact serious arms control dialogue starting 
with Russia, bringing in all the other nuclear powers, would 
have a definite impact over time in North Korea and Iran, and 
really the North Koreans always accompany everything they say 
with speeches of this kind, and they end up by saying, well, we 
have got to have a nuclear agreement in the Pacific area in 
which you participate.
    Now, I do not think they really mean that. I do not think 
that they really expect us to give up our nuclear capabilities 
in the Pacific, but they always say it, and there is no 
question that political cover for the realists in North Korea 
would be much greater if we were to listen to what you are 
saying.
    Mr. Faleomavaega. You would think then that the urgings and 
the pleadings would be heard of someone like the President of 
Kazakhstan who voluntarily dismantled the nuclear weapons that 
the Soviet Union had left in his country--by the way after 500 
detonations of nuclear weapons in Kazakhstan exposed some 1.5 
million Kazaks to nuclear radioactivity--not a pleasant story 
when I visited Kazakhstan to see what happened to this country.
    The point I just wanted to make is do you think it really 
is unrealistic to make an effort to dismantle nuclear weapons 
altogether? You do not think that is realistic?
    Mr. Harrison. Well, no. I think that many people, George 
Schultz, Henry Kissinger, lots of people, Sam Nunn, have been 
working lately to move toward a gradual process beginning with 
United States/Russian reductions down to 1,000, and then moving 
very slowly bringing in everybody else. You cannot expect the 
existing nuclear powers to give up their nuclear capabilities 
until they see that everybody is going to play ball, so it 
obviously would be a very slow process.
    But what is really unrealistic is to think that we can get 
away with a double standard and have our own nuclear weapons 
and not have others.
    Mr. Faleomavaega. So we should continue the double standard 
then because of the realities that we are faced with in this 
world?
    Mr. Harrison. No, I do not think we should continue the 
double standard at all. I think we should have a global policy 
of gradual nuclear arms reductions in which we make clear that 
we are prepared to go to zero, and there is a very 
significant----
    Mr. Faleomavaega. Trust but verify.
    Mr. Harrison. What?
    Mr. Faleomavaega. Trust but verify.
    Mr. Harrison. Yes, and bring together a nonproliferation 
and nuclear disarmament. There is a very significant movement 
now, it is called ``Global Zero,'' and you may know about it, 
Mr. Bruce Blair of the World Security Institute is organizing 
it. Many other people are very interested in global nuclear 
disarmament. It is not a soft issue. It is a hard issue because 
it is one of the most dangerous one in the world.
    Mr. Faleomavaega. The gentleman from California, Mr. Royce.
    Mr. Royce. Mr. Harrison, do you support Radio Free Asia and 
their broadcasts designed to change the nature of North Korea? 
What are your thoughts?
    Mr. Harrison. You know, I have not--I am not aware. I do 
not really know what the programming of Radio Free Asia is. I 
am certainly not against a radio capability, but I would want 
to know what they are saying, what they are doing with it, 
which I do not know, before I would really----
    Mr. Royce. It may be problematic because they are actually 
telling people what is going on inside North Korea. For 
example, the gulags, and I do not know your view of that.
    Mr. Harrison. I am sorry?
    Mr. Royce. I call them gulags but the camps in North Korea.
    Mr. Harrison. Right. Well, as I was saying to Congressman 
Rohrabacher, I think that getting rid of the gulags is why we 
have to engage with North Korea. You are not going to get rid 
of the gulags with balloons sent up from South Korea or 
broadcasts over Radio Free Asia. You are going to get rid of 
the gulags if you open up North Korea through a sustained 
process of political and economic engagement, and arms control.
    Mr. Royce. Yes, if you can get the North Koreans to open 
up. If you cannot get the North Koreans to open up--and this is 
reminiscent of a conversation I had with a former North Korean, 
I think he was secretary general for international affairs for 
the party of North Korea, Hwang Jang-yop. He presented the 
argument, that in his time--and of course he served with both 
Kim Jong Il and Kim Il Sung, was sort of fashioning propaganda 
for the regime--the strategy was to extract from the West many 
concessions. Hopefully $1 billion a year. The concept behind 
the attitude and the pose that they would strike on the world 
stage was intended to get that aid that the regime could use to 
prop itself up. In a sense the economic system that the regime 
was wedded to was not conducive for the long-term continuance 
of the state.
    So the state found another methodology. Just to go through 
some of the concepts--counterfeiting U.S. currency; basically 
gun-running or selling missile parts. To take a present-day 
example, putting up a nuclear reactor in the Middle East; drugs 
as a means of getting illicit hard currency into the country; 
and with all of this a concept of trying to extract in the 
middle of any negotiations. I was going to ask you; you talk of 
strengthening the ``pragmatists'' in North Korea. Let me ask 
you about those winds of change that you saw in North Korea. 
Could you explain those to me a little bit?
    Mr. Harrison. I too have had conversation with Hwang Jang-
yop, about four or five of them, when he was in North Korea and 
after he has come to South Korea. I think that what you have 
said is not--I take exception to some of what you said but not 
all. Certainly it is true that the regime wants to survive, and 
therefore they want to get what they can get to survive from 
us, from others. But at the same time in order to survive they 
recognize that they need a lot of things. They need to change a 
lot of the way they do things, so that is why we have had 
economic reform, fits and starts, going forward, going back, 
and so he is riding a tiger. Kim Jong Il is riding a tiger; the 
leadership is riding a tiger. They want to keep the perks they 
have and the generals are all involved in economic 
conglomerates. One general controlling the gold exports, and 
another the zinc exports, and no questions that the leadership 
has--the elite has perks it wants to preserve.
    But their dilemma is that they have to make changes to keep 
the place going. When there is a famine they had to permit 
private markets to develop, and they did, and the ones who 
wanted to see things move in that direction used the famine to 
let that process start.
    Mr. Royce. Well, but let me a question here.
    Mr. Harrison. You cannot be a little bit pregnant, so there 
gradually is a marketization process. So anyway a complicated 
situation.
    Mr. Royce. But if we go back to Hwang Jang-yop, I think he 
gave me the number of 1.9 million. That is the number of people 
who starved in North Korea or he believed starved officially in 
North Korea because they were not wedded to the idea that they 
had to use it to feed that part of the population. As he 
explained to me, the aid was to go to the party to keep it in 
power. And one of the things that reminded me of it, just now I 
thought of this.
    Years ago I read a book by Jean-Francois Revel, How 
Democracies Perish. He talked about Lenin's new economic policy 
and Stalin's reforms, and how the real intention there was to 
bring in capital from Europe, from the U.K., from the West. Not 
with the intention of changing the regime, but with the 
intention of getting their hands on the hard currency while 
they built up the Red Army. And of course that is certainly--
ever since we discovered the situation in Syria, on the banks 
of the Euphrates that there was sort of a carbon copy of the 
plutonium reactor; in the middle of negotiations North Korea 
was developing that offensive capability for another state. It 
really turns a lot of our thoughts to what might be done in 
terms of those proliferation networks, and especially with the 
tentacles really that they have on the criminal activity, the 
way in which they proliferate missiles, drugs and so forth, 
that gives them the network to do things like what they did.
    We do have initiatives to stop that kind of contraband, 
that illicit activity on the high seas, which then constricts 
the hard currency. It limits their ability to fund, according 
to some defectors that I have talked to who worked in the 
military operations, limits their ability to fund their missile 
productions, their nuclear weapons product. Because when they 
run out of the hard currency, I mean, when they seize--Banco 
Delta Asia, when those accounts were seized, not just there but 
when China shut down the accounts everything had to come a 
grinding halt inside the country.
    So I am just explaining the other part of this negotiation. 
I think when President Lee Myung Bak tries to establish a two-
way street to negotiations and you say, Well, that is 
``disastrous'' to try to do that. We have a great deal of 
experience with the one-way street going back many, many years. 
So I just raise these questions for your consideration.
    I have been on this committee since 1993. And I remember 
the framework agreement. I had high hopes. I have been to North 
Korea. I have been to South Korea many times in hopes that 
things would change. But the more I look at it the more I think 
that what this former secretary general for internal affairs 
told me might just be right.
    Mr. Harrison. I greatly appreciate these very thoughtful 
comments and I will certainly think about what you have said. I 
also--you know, when I met--I had written about my 
conversations with Hwang Jang-yop in my book, Korean End Game, 
and one of his points he made to me was that he thinks Kim Jong 
Il, he does not like Kim Jong Il because he found him a very 
manipulative man, and he did not get along with him. But he did 
say very clearly that Kim Jong Il recognizes the need for 
reform of the system, economic system in particular, in North 
Korea, but he is afraid to go too fast because he is sitting on 
a political volcano and Kim Jong Il is afraid where this may 
lead. So he is riding a tiger and he is trying to open the 
system up without losing power, and I think that was a very 
clear analysis by Hwang Jang-yop, and it is borne out by my 
impressions.
    You know, I have gone there now 11 times since 1972. You 
have been there. Each time there are a lot of things you cannot 
do, but there are some things you can do and you gradually 
build up various kinds of contacts, and there is no question 
the place has changed a great deal, and is changing. You know, 
in the days of cell phones and all the technology that has 
changed, and the fact that you have got a Chinese underground 
smuggling.
    Mr. Royce. Right.
    Mr. Harrison. And you have----
    Mr. Royce. I understand. I just did not see that change in 
the countryside.
    Mr. Harrison. All that stuff is coming in and the place is 
changing.
    Mr. Royce. But the change I saw was the amount of hard 
currency they now have to develop their ICBM program, to 
develop their nuclear program. And I notice that that has not 
changed, and the assertion made by former defectors that that 
has always been the plan leads us then with a certain 
conundrum.
    You say that you pushed the idea of renewed missile 
negotiations hard with the North Koreans. As I recall the 
negotiation, the North Koreans were asking for $1 billion 
annually to curtail its missile proliferation. Do you believe 
this is why we have seen missile activity from the North 
Koreans?
    Mr. Harrison. Well, they were trying to replace the--they 
wanted to have the income they would lose from the missile 
exports that you correctly call attention to, they wanted to 
have that lost income covered in some way, and various people 
like James Goodby, you may know of, the former State Department 
top arms control negotiator, has worked with Senator Lugar and 
others to try to develop at that time of these negotiations, 
develop programs for constructively diverting----
    Mr. Royce. Yes.
    Mr. Harrison [continuing]. Their capabilities to civilian 
uses, but you know, certainly what you said about hard 
currency, I would have to see it in writing, but there is 
certainly a lot to what you say, so I do not wish to suggest a 
one-dimensional approach on my part.
    Mr. Royce. I understand, and let me say that----
    Mr. Harrison. Let me tell you the place has changed a great 
deal and is changing a great deal. That is what we are working 
for, and that is what we have to keep our eye on.
    Mr. Royce. That is true, but the change that could be made 
if, for example, the Kaesong Industrial Park. If the money from 
Kaesong went not to the party, if it went instead to the 
workers, that might indeed begin to walk down a road of change. 
But instead we have this interesting arrangement very 
reminiscent of what happened, you know, in Russia in the 
thirties where the money is paid to the state. The money is 
paid to the government. It goes right to the party's account, 
and they then decide the pittance they will pay the workers.
    So getting change in that kind of an arrangement is much 
more problematic and that is why I think at times there has to 
be pressure brought to bear when it becomes too much of a one-
way street. Hence the requirement, in my mind, that you 
actually get verification. Your concept there we give them $1 
billion, they do not proliferate. If we could verify that, it 
would be one thing. But since they have violated all the prior 
agreements, at least in my memory, they proliferate anyway in 
the middle of negotiations, the upshot could be they have $1 
billion for their new ICBM program, and we think we have got an 
agreement that they are going to not proliferate anymore while 
they do exactly what they did with respect to Syria. Hence my 
concern on this perspective.
    Mr. Harrison. There was no fissile material to make four to 
five to six nuclear weapons at the end of the agreed framework 
period. It worked.
    Mr. Royce. Plutonium, on plutonium. The question is 
enriched uranium, and you know the debate on that because----
    Mr. Harrison. Are you changing the subject? That is the----
    Mr. Royce. No, that is not changing the subject. That is 
ignoring a very important part of this subject which might be 
this: Maybe they are willing to give up the old reactor that is 
in plain view because we have found so much traces of enriched 
uranium on documents that they have actually got an enriched 
uranium program going simultaneously. Why else, why else would 
the Pakistani nuclear scientist, A.Q. Khan, be in consultation, 
be sending centrifuges to North Korea unless the concept was 
let us develop the kind of uranium enrichment program that will 
give us an alternative weapon besides the plutonium weapon. 
That is really what concerns us, is the fact that we do not 
have this ability to verify and they have a dual-track program 
apparently. Hence they might be willing to negotiate this for 
$1 billion, and put this into a program where they could 
develop an arsenal, miniaturize it, do the ICBMs, and suddenly 
we have compounded the problem.
    Mr. Harrison. If you ever have a chance to read it, I hope 
you will read the piece I did in Foreign Affairs in early 2005, 
I think everything I said in that piece about the exaggerated 
intelligence, about this uranium program has been fully 
vindicated, and I do not accept--I do not know how much time 
the chairman wants to give me and to take on this issue, but 
just to be very brief I do think that the----
    Mr. Faleomavaega. We have two more panels coming up, Mr. 
Harrison.
    Mr. Harrison. I know that. I am well known to believe that 
the assumption of any kind of weapons grade uranium program is 
not at all substantiated, and was basically used as an excuse 
to abrogate the agreed framework in December 2002 which has had 
disastrous consequences in allowing them to restart their 
plutonium program.
    Mr. Royce. Well, in 2007, the intelligence community told 
the Senate Armed Services Committee that there was ``mid-
confidence level'' that North Korea still had an active HEU 
program. This provided ammunition for critics, I think, of the 
Bush administration, feeding a narrative that the Bush 
administration hyped the intelligence. But in the last days of 
the administration, National Security Advisor Steve Hadley 
revived the allegations on HEU. Now, this is our intelligence 
community. And they report ``increasing concerns that North 
Korea has an ongoing covert uranium enrichment program.''
    I did a lot of work on A.Q. Khan, and the part--you know, 
because I happened to chair that International Terrorism and 
Nonproliferation Committee. The aspect of Khan's engagement 
with North Korea, the trips up there by the Pakistanis and the 
number of trips, the exchange of information for missiles, the 
centrifuges. All of this convinces me at least that, yes, 
indeed they were in the process of trying to develop this. I 
must say what benefit of the doubt I was willing to give the 
North Koreans kind of evaporated at the point when the Syrian 
reactor turned out to be something they were doing under the 
nose of the international community. It seems to really verify 
the fact that dishonesty is part of the negotiation strategy on 
that side of the table. That is my perspective.
    Mr. Faleomavaega. I thank the gentlemen from California for 
his questions, and Mr. Harrison, I want to thank you. Dana, did 
you have anymore questions? Okay.
    Thank you again for coming to testify before the 
subcommittee, and we look forward continuing our dialogue and 
see where we need to go from there. Thank you again, Mr. 
Harrison.
    I am going to be a little flexible this afternoon by rather 
than dividing this into two panels, let us have all our next 
witnesses up here on the witness table. Ambassador Pritchard, 
Dr. Victor Cha, Mr. Bruce Klingner, Mr. Scott Snyder and Mr. 
Peter Beck, are all our witnesses here. We may be short of 
microphones here. Can we get another microphone there? We only 
have four microphones. Can we get another microphone?
    All right, we certainly want to welcome our distinguished 
witnesses this afternoon, and thank you so much for taking your 
time from your busy schedules to come and testify before the 
subcommittee.
    Ambassador Pritchard is the President of the Korea Economic 
Institute here in Washington, DC, and also he was the visiting 
fellow of the Brookings Institution. Ambassador Pritchard 
served as Ambassador and Special Envoy for negotiations with 
the Democratic People's Republic of Korea and the United 
States, representative to the Korean Peninsula Energy 
Development Organization during the administration of George W. 
Bush.
    Previously he served also as special assistant to the 
President for the National Security Affairs and Senior Director 
of the Asian Affairs under President Clinton. He also has 
accompanied Secretary of State Madeleine Albright to North 
Korea for the meetings with North Korean leader Kim Jong Il.
    Ambassador Pritchard holds a degree from Mercer University 
in Georgia and also a master's in International Studies from 
the University of Hawaii. Well, okay. And also a retired 
colonel in the U.S. Army, 28 years of service.
    Also with us is Dr. Victor Cha. Dr. Victor Cha received his 
doctorate from Columbia University as well as his bachelor; 
received his master's from Oxford University. I assume he has a 
British accent by now. He is the director of Asian Studies and 
holds the D.S. Song-Korea Foundation chair in the Department of 
Government and School of Foreign Service here at Georgetown 
University. He left the White House in May 2007 and served 
since 2004 as Director of Asian Affairs at the National 
Security Council, and was also responsible primarily for the 
Pacific region as well as Pacific Island nations.
    Professor Cha has also received an award for his latest 
work or book that he authored. It is called Alignment Despite 
Antagonism: The United States-Korea-Japan Security Triangle. 
Professor Cha is a former John M. Olin National Security Fellow 
at Harvard University, two-time Fulbright Scholar, and Hoover 
National Fellow at Stanford University.
    Mr. Bruce Klingner joined the Heritage Foundation in 2007 
when the Six-Party Talks on North Korea's nuclear weapons 
programs were re-energized by the Beijing Agreement.
    Mr. Klingner served for 20 years as a U.S. Intelligence 
Officer with the Central Intelligence Agency--did I say that 
correctly? And the Defense Intelligence Agency. In 1994, he was 
the selected as the Chief of the Korean Branch where he 
provided analytical reports on military developments during the 
nuclear crisis with North Korea.
    There is a whole bunch of stuff here. Graduate of 
Middlebury College in Vermont; active in the Korean martial 
arts. Sure hate to meet you in the dark alleys--attained a 
black belt status in tae kwon do and hapkido--wow. How about 
hikido?
    Mr. Peter Beck, Mr. Peter Beck teaches at American 
University here in Washington, DC and also Ewha University in 
Seoul, Korea, puts out a monthly column for Weekly Chosun and 
The Korean Herald. Previously, he was the executive director of 
the U.S. Committee on Human Rights in North Korea; has written 
over 100 academic and short articles in four languages. I 
assume English, of course, Korean, and it has got to be Chinese 
as well, graduate of the University of California at Berkeley, 
and UC San Diego's Graduate School of International Relations.
    Mr. Scott Snyder, welcome, is the Director of the newly-
established Center for U.S.-Korea Policy at The Asia 
Foundation, and a Senior Associate at The Asia Foundation and 
Pacific Forum CSIS. He is also Adjunct Senior Fellow at the 
Korean Studies and Director of the Independent Task Force on 
Policy Towards the Korean Peninsula at the Council on Foreign 
Relations. He is based here in Washington, DC; lived in Seoul, 
Korea, as Korea Representative of The Asia Foundation, all 
kinds of goodies you have got here, Mr. Snyder.
    Received his undergraduate studies from Rice University, a 
master's in regional studies at Harvard, and a recipient of the 
Pantech Visiting Fellow at Stanford University.
    Gentlemen, welcome. After saying all of that, we will be 
very well informed by your testimonies this afternoon. 
Gentlemen, I know you have been sitting there for quite awhile. 
Forgive us for having to ask so many questions of Mr. Harrison, 
but I am sure you will correct some of the observations and 
some of the comments that he had made earlier.
    I think Ambassador Pritchard has a plane to catch. Who else 
has a plane to catch? Great. Ambassador Pritchard, why don't we 
<greek-l>not  deg.start off with you. As I said earlier, 
without objections all your statements will be made part of the 
record, fully.

  STATEMENT OF THE HONORABLE CHARLES L. PRITCHARD, PRESIDENT, 
 KOREA ECONOMIC INSTITUTE (FORMER AMBASSADOR AND SPECIAL ENVOY 
               FOR NEGOTIATIONS WITH NORTH KOREA)

    Mr. Pritchard. Thank you, Mr. Chairman, for inviting me to 
discuss with your subcommittee an important foreign policy 
issue facing our Nation and our new administration. I commend 
the committee for holding this hearing and asking the witnesses 
today to address the issue of smart power because that is 
exactly what is required of the administration in formulating 
its policy toward North Korea. With your permission and to stay 
within the time allotted, I will present a summary of my 
prepared statement.
    North Korea presents a special challenge, one that has 
evolved and has become more dangerous over the past several 
years. Secretary Clinton and President Obama have indicated 
that they continue to value the Six-Party process and will 
enhance cooperation and coordination with our allies, South 
Korea and Japan. That is a good start.
    But let me suggest while the Six-Party process is focused 
on capping future plutonium production, it has failed to 
adequately address proliferation concerns. In World At Risk: 
The Report of the Commission on the Prevention of WMD 
Proliferation and Terrorism, the commission concluded that 
unless the world community acts decisively and with great 
urgency it is more likely than not that a weapon of mass 
destruction will be used in a terrorist attack somewhere in the 
world by the end of 2013.
    Proliferation should be one of our most important concerns. 
Unfortunately, the Six-Party process, unless modified to 
accommodate all our WMD concerns, has put us on a slow 
incremental path that ultimately does not guarantee the 
denuclearization of North Korea. Phase III, as you know, is the 
dismantlement of North Korea's nuclear facilities at Pyongyang. 
While dismantlement may be part of the ultimate and 
irreversible solution, it does not really get us any closer to 
our goal of actual denuclearization and it does not 
substantially improve the reality that disablement under Phase 
II has already capped North Korea's plutonium production 
capability.
    Do we really want North Korea to continue thinking of 
itself as a nuclear weapon state as we negotiate for the 
dismantlement of the facilities that are already shutdown and 
disabled? It will make the final decision by North Korea to 
give up its fissile material and weapons that much harder. I 
see no substantive reason to enter into a Phase III negotiation 
over dismantlement. It will most likely turn out to be an 
unnecessary waste of several years of negotiations. Both sides 
should move directly to what we both actually want--removal of 
fissile material and nuclear weapons from the DPRK in exchange 
for normalization.
    Now, that may not sound very palatable at first offering, 
but North Korea has been clear with United States negotiators 
and directly with me last April, Pyongyang does not intend to 
discuss let alone give up its nuclear weapons in Phase III. It 
intends to hold onto them as long as possible. It is in our 
interest to move boldly toward the end game as quickly as 
possible by agreeing to move directly to discussions over 
normalization. Issues that previously were put off for the sake 
of momentum must now be captured as part of the normalization 
agenda.
    That means we should have no hesitancy in discussing our 
concerns about Pyongyang's human rights shortcomings. 
Nonproliferation treaty exceptions for Pyongyang should cease, 
and we should insist on a normal and active role for IAEA 
inspectors.
    What I am suggesting is a more robust bilateral discussion 
between Washington and Pyongyang while remaining in the overall 
framework of the Six-Party process. This places a leadership 
responsibility on the United States that I believe is best 
accomplished by the appointment of a senior envoy who would 
navigate the complexities and interests of the many agencies 
that contribute to the development of a cohesive United States 
policy toward North Korea.
    Because there is actual value in the Six-Party process, the 
envoy would have the concurrent requirement to assist the 
Secretary of State in coordinating the common goals and 
objectives of the other members of the Six-Party process, 
particularly those of Seoul and Tokyo.
    The North Korea problem requires we understand our allies' 
concerns and be able to create a synergistic effect to maximize 
the probability for success. The promise of the Six-Party 
process has not yet been fulfilled. We cannot hope to succeed 
in our goal of denuclearization of North Korea without the full 
support of our close allies. An important challenge the United 
States will face in the coming months will be to assist and, 
where necessary, to insist that dialogue and relations between 
North and South Korea improve as dialogue and relations between 
the United States and North Korea improve. It is not productive 
nor reasonable for inter-Korean relations to deteriorate as 
United States-North Korea relations improve.
    The same is true for Japan-North Korea relations. Tokyo is 
looking carefully at the new U.S. administration and will want 
to know that we continue to value Japan's participation in the 
Six-Party process. Specifically, Tokyo needs reassurance that 
the Obama administration fully understands the emotional, 
political sensitivity of the abduction issue in the light of 
the removal of North Korea from the list of state sponsors of 
terrorism last October.
    One of the casualties of focusing exclusively on capping of 
North Korea's plutonium program has been the absence of a 
discussion about Pyongyang's maturing missile program. That has 
not taken place since November 2000. Cessation of Pyongyang's 
indigenous missile development along with their assistance to 
other countries must be part of our overall policy approach to 
North Korea.
    The challenges are great, the outcome is uncertain, but the 
requirement that we use smart power to the fullest is 
unquestioned. Failure to denuclearization North Korea is not an 
option.
    I look forward to your questions, sir.
    [The prepared statement of Mr. Pritchard 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you, Ambassador. Professor Cha.

 STATEMENT OF VICTOR CHA, PH.D., ASSOCIATE PROFESSOR, DIRECTOR 
OF ASIAN STUDIES AND D.S. SONG-KOREA, FOUNDATION CHAIR IN ASIAN 
         STUDIES AND GOVERNMENT, GEORGETOWN UNIVERSITY

    Mr. Cha. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you today. I wanted to offer my 
personal thoughts on North Korea based on my experience working 
this issue for the White House on the National Security 
Council, and also as our deputy head of delegation to the Six-
Party Talks, and also based on my research on the country as an 
author and academic. I will focus my remarks on next steps 
where we go with North Korea in Six-Party Talks and I will 
present a summary of my prepared statement to you.
    I think the United States would be best served by following 
the basic outlines of the policy that characterized the second 
term of the Bush administration with some notable exceptions. 
President Obama will inherit a Six-Party process that has 
effectively mobilized key regional players, most importantly, 
China, and has achieved a working disablement of the main 
nuclear facility at Yongbyon.
    President Obama's very capable Asian team will need to 
implement the verification protocol for the North Nuclear 
Declaration as early as possible to ensure that plutonium 
facilities at Yongbyon are constantly monitored and degraded. 
The administration should also consider widening the aperture 
to achieve disablement of other elements of the North's nuclear 
program at Yongbyon even as it negotiates a tough position on 
verification.
    The third phase or dismantlement negotiation will be even 
more difficult than the prior two negotiated agreements, the 
September 2005 agreement and the February 2007 agreement. A key 
priority will be to address the ambiguities left by the earlier 
agreements on North Korea's proliferation activities and its 
uranium-based nuclear activities.
    In addition to pursuing this Six-Party track, I believe the 
Obama administration needs to consider a paradigm shift of 
sorts in its overall policy toward the DPRK. This consists of 
three components.
    First, it must find a way to integrate a discussion on 
North Korea's ballistic missile program in the Six-Party 
process. Press reports show North Korea is plowing full steam 
ahead with its missile activities even as it negotiates a 
disablement of its nuclear program. This might be added as 
another working group in the Six-Party process in addition to 
the five that already exists. It is clear that Pyongyang will 
not give up its missiles for free so the United States must tie 
the missile negotiations to incentives in the normalization and 
energy working group processes.
    Second, the administration needs to consider a separate 
trilateral dialogue among the United States, South Korea and 
China. The North Korean leader's time in office is limited 
given his rather serious health problems. While the United 
States and South Korea have restarted discussions on how to 
respond to a sudden collapse scenario north of the 38th 
parallel, they also need to begin a quiet discussion with 
China. The purpose of such a discussion would be to create some 
transparency about the relative priorities and likely first 
actions by the three parties in response to signs of political 
instability in the North.
    Presumably we would be interested in securing nuclear 
weapons and materials. South Korea would be interested in 
restoring domestic stability. China would be interested in 
securing its borders against the massive influx of refugees. 
Coordination in advance helps to minimize misperceptions and 
miscalculation in a crisis.
    Third, the Obama administration should not make a 
presidential meeting or anything of that nature with the North 
Koreans, the banner of its policy as it did during the 
campaign. This is not in the interest of the United States or 
South Korea. Some may argue that an early meeting by the 
President or Vice President might be a good way to accelerate 
the negotiation process. In my own opinion, nothing could be 
further from the truth. The President of the United States is 
not a negotiator nor should he be treated as one.
    Only after the denuclearization process is near completion 
should a presidential meeting even be considered. Hardliners in 
Pyongyang will view the new Obama Presidency as weak since 
electoral victories do not resonate with dictators. They will 
also see it as inexperienced and completely overwhelmed by two 
wars and a financial crisis. To offer a high-level meeting 
amidst this very difficult situation would not only look 
amateurish, it would confirm the hardliners' views of American 
weakness and inexperience.
    There is no denying, however, that if we want to move the 
denuclearization process more quickly we do need to reach 
higher into the Kim Jong leadership beyond the foreign ministry 
officials that they have been trotting out for the last 16 
years.
    In the course of the Six-Party Talks, when the North Korea 
were slow to make decisions, we often challenged them to bring 
people from the Dear Leader's Office or from their National 
Defense Commission to their delegation in Beijing to make 
quicker decision, and we pointed to our own interagency team of 
State, the White House and the Pentagon. This is why President 
Obama needs to move forward with the appointment of a senior 
envoy for Six-Party Talks. The Congress has long sought a 
senior coordinator on North Korea policy from the Bush 
administration. Such an appointment, whether from the White 
House or State Department, would compel Pyongyang to bring 
forth members of its National Defense Commission and other key 
agencies to negotiate in earnest for a final solution, 
otherwise the same foreign ministry officials from Pyongyang 
will show up at Six-Party Talks to stall and to stonewall the 
negotiations.
    Sending the new American President to North Korea is not 
the answer, but challenging North Korea to bring people to the 
Six-Party Talks who can make real decision is.
    In sum, the new administration should not be wide-eyed 
optimists about North Korea. Instead, they should design a 
strategy that systematically tests North Korea but also 
demonstrates U.S. political commitment to the negotiation 
process. If Pyongyang is serious, then the Six-Party partners 
can press the negotiation harder, trying to move to the final 
phase of nuclear dismantlement. However, if Pyongyang balks, 
then it will be clear to all where the blame sits for the 
breakdown of the agreement. This, in turn, would make it easier 
to build or lead a multilateral coalition for a tougher course 
of action as needed.
    Thank you very much.
    [The prepared statement of Mr. Cha 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Thank you Professor Cha. Mr. Klingner.

   STATEMENT OF MR. BRUCE KLINGNER, SENIOR RESEARCH FELLOW, 
            NORTHEAST ASIA, THE HERITAGE FOUNDATION

    Mr. Klingner. Thank you very much, Mr. Chairman, and 
distinguished members of the subcommittee for asking me to 
testify today. It is indeed a great honor to appear before you. 
With your permission, I will summarize some of the key points 
from my prepared statement in my oral remarks.
    Mr. Faleomavaega. Please proceed.
    Mr. Klingner. Thank you, sir.
    The views expressed in this testimony are my own and should 
not be construed as representing any official position of The 
Heritage Foundation.
    In the dawn of a new year and a new U.S. administration, we 
can again be hopeful of a diplomatic solution to the North 
Korean nuclear problem, but of all the foreign policy 
challenges that Barack Obama inherited, North Korea may prove 
to be the most intractable. Neither the confrontational 
approach of the first 6 years of the Bush administration nor 
the largely unconditional engagement strategy of the final 2 
Bush years achieved success.
    But a U.S. policy that integrates a comprehensive 
diplomatic approach with accompanying pressure may prove 
successful, particularly if closely coordinated with our 
allies--South Korea and Japan. Still, prudence demands that we 
remember the broken promises and shattered dreams that litter 
the Korean landscape. North Korea has already sent an early 
shot across the Obama administration's bow by raising 
outrageous new demands for fulfilling its previously agreed 
upon denuclearization commitments.
    And Pyongyang's vitriolic attacks, military threats, and 
near severing of relations when South Korea and Japan merely 
requested conditionality and reciprocity bodes ill for those of 
us hoping North Korea will accept future requirements during 
the Six-Party Talks. Pyongyang is clearly signaling that it 
will not adopt a more accommodating stance despite the change 
in U.S. administrations.
    Although there will be a perception of a major shift in 
U.S. policy, President Obama will largely maintain the policy 
of the final 2 years of the Bush administration. Although 
President Obama may be more willing to engage in senior-level 
diplomatic engagement, it is questionable whether such tactical 
changes will achieve verifiable North Korean denuclearization. 
After all, during the past 2 years the Bush administration 
engaged in the kind of direct bilateral diplomacy with 
Pyongyang that President Obama now advocates. Yet there has 
been continued North Korea intransigence, noncompliance and 
brinkmanship.
    And turning to verification, creating a sufficiently 
rigorous verification system is critically important as the 
best defense against North Korea violating yet another 
international nuclear agreement. U.S. national technical means, 
including imagery satellites, are useful, but they are no 
substitute for on-site inspections. It is now clear that the 
Bush administration, in return for maintaining a sense of 
progress, was willing to abandon key verification requirements 
such as short-notice challenge inspections of non-declared 
facilities. The United States simply cannot allow North Korea 
to play a nationwide nuclear version of Whack-A-Mole or Three 
Card Monty.
    Washington's premature removal of North Korea from the 
terrorist list angered key allies Japan and South Korea, who 
now see the United States as unwilling to consider their 
security concerns. In particular, Tokyo felt betrayed by 
President Bush breaking his personal pledge that the United 
States would keep North Korea on the terrorist list until 
progress was achieved on the abduction issue. Tokyo has now 
lost considerable leverage in its attempts to get North Korea 
to live up to its commitment to reopen the kidnapping 
investigations, and of course the abduction issue is already 
part of the Six-Party Talks as one of the working groups.
    The verification agreement also undermined South Korean 
President Lee Myung Bak's attempts to impose conditionality, 
reciprocity, and transparency on Seoul's previously 
unrestricted economic largess to North Korea.
    As President Obama attempts the difficult task of making 
real progress in North Korean denuclearization, he should look 
to history for guidance, and history clearly advises that he 
should avoid several current recommendations. Specifically, he 
should not double down on a losing hand. The limited action-
for-action strategy of the Six-Party Talks has failed, so some 
advocate broadening the scope of benefits to offer North Korea 
on an even larger deal.
    Secondly, provide concessions to strengthen so-called North 
Korean engagers. North Korea intransigence has been depicted as 
a short-term manifestation of a hard-line faction, with Kim 
Jong Il having fallen under the influence of North Korean 
neoconservatives. Based on my service in the United States 
intelligence community, I believe that that concept has been 
overplayed and in actuality is largely a North Korean 
negotiating tactic.
    Third, use creative ambiguity to maintain ``progress'' in 
negotiations. U.S. negotiators have repeatedly acquiesced to 
North Korean demands for vague text rather than clearly 
delineating requirements and timelines.
    And fourth, sacrifice U.S. allies on the alter of 
denuclearization.
    Now, what should be done? President Obama and Congress 
should emphasize that the United States seeks to use diplomacy 
to achieve North Korean denuclearization, but not at the cost 
of abandoned principles or dangerously insufficient compliance. 
Specifically, the U.S. should affirm the U.S. objective is the 
complete and verifiable denuclearization of North Korea and 
unequivocally state that Washington will not accept North Korea 
as a nuclear weapon state, as Secretary Clinton did during her 
confirmation testimony.
    Two, use all the instruments of national power. It has a 
new label now of ``smart power,'' but it is a concept that has 
been around before and previously was know as using all the 
instruments of national power. The U.S. military even had an 
acronym of DIME, D-I-M-E, diplomatic, informational, military, 
and economic, in the sense of a coordinated integrated 
strategy. The United States and its allies should also 
simultaneously use outside pressure to influence North Korea's 
negotiating behavior.
    Third, insist that North Korea fulfill its existing 
requirements.
    Fourth, realizing that talking is not progress. The U.S. 
should resolve issues rather than repeatedly lowering the bar 
simply to maintain the negotiating process.
    Fifth, insist on a rigorous and intrusive verification 
mechanism.
    Six, define red lines and their consequences. The Bush 
administration's failure to impose costs on North Korea for 
proliferating nuclear technology to Syria undermined U.S. 
credibility and sent a dangerous signal to other potential 
proliferators.
    And seven, establish deadlines with repercussions for 
failing to meet them. North Korea must not be allowed to drag 
out the Six-Party Talks indefinitely in order to achieve de 
facto international acceptance as a nuclear weapon state.
    In conclusion, it is not a question of whether the United 
States should engage North Korea, rather it is a matter of how 
to do so. Engagement is a means rather than an ends, and it is 
also important to control the ways in which it is applied. 
While the United States should continue to strive for 
diplomatic solution to the North Korea nuclear problem, the 
Obama administration should also accept that there may not be a 
magical combination of inducements that ensures North Korea 
abandons its nuclear weapons.
    Therefore, the United States should quietly even now begin 
contingency planning, in conjunction with our Asian allies, in 
the event of a failure of the Six-Party Talks to achieve full 
North Korean denuclearization.
    Thank you for the opportunity to appear before you today. I 
look forward to your questions, sir.
    [The prepared statement of Mr. Klingner 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Faleomavaega. Thank you, Mr. Klingner. Mr. Snyder.

STATEMENT OF MR. SCOTT SNYDER, SENIOR ASSOCIATE, INTERNATIONAL 
                 RELATIONS, THE ASIA FOUNDATION

    Mr. Snyder. I also want to thank you, Mr. Chairman, for the 
opportunity to testify before this subcommittee, and my remarks 
will also be based on my testimony that I have submitted.
    I think the North Korean challenge has in fact grown more 
difficult with the transition to a new administration. The 
North Koreans have sought to make permanent a new status quo in 
which North Korean's nuclear weapon status is recognized by the 
international community while leading analysts are increasingly 
skeptical that North Korea can be convinced to give up its 
nuclear weapons. This is a dangerous dynamic which must be 
corrected by a policy that shows continuing efforts to address 
denuclearization in the context of a comprehensive approach to 
North Korea, not simply by pursuing the denuclearization only 
approach that has characterized the administration's early 
statements on the North Korea issue.
    A comprehensive approach, I would agree with Mr. Pritchard, 
will require effective coordination across the government to 
lead interagency coordination, promote coordination with allies 
and other stakeholders, and negotiate with North Korean 
counterparts, and so we do need a point person, I think, for 
the Obama administration who has the capacity to carry-out 
these functions following a similar approach to that which the 
administration is using in the Middle East and in Afghanistan 
and Pakistan.
    Past administrations have attempted over the course of the 
past two decades to present two paths to North Korea: To 
dramatize the need for the North Korea to make a strategic 
choice with the idea that either rewards will be forthcoming if 
North Korea chooses the right road or that isolation and 
sanctions will be imposed if North Korea chooses the wrong 
road.
    But this model has failed to mobilize sufficient will on 
the part of the United States and other parties to backup the 
assertion that North Korea has reached a decision point and has 
place the onus on North Korea to decide while allowing North 
Korea to harbor false hope that such a choice might be deferred 
or avoided.
    At this stage I think a better approach would be to seek 
affirmation from other members of the Six-Party Talks that the 
principles embodied in the Six-Party Joint Statement of 
September 2005 now represent the only viable outcome acceptable 
to all the parties in the region, and that there will be only 
one road available by which to move toward that objective, via 
the consensus that is embodied in the Six-Party framework.
    I think that this is the path that Secretary Clinton 
rightly affirmed in testimony at her confirmation hearing, a 
path that will employ bilateral talks in tandem with the Six-
Party process. Via these channels North Korea should no longer 
be presented with an opportunity to make a strategic choice but 
rather with a situation in which the strategic choice is 
recognized as a fait accompli, and the common task is to 
implement the consensus that all the parties have already 
agreed upon.
    Simultaneously the United States should be in coordination 
with allies and partners in Northeast Asia to foreclose any 
perceived North Korean alternative paths that might allow 
Pyongyang to sidestep negotiations or to arrive at the 
conclusion that there is a viable path for the North to survive 
as a nuclear weapon state.
    These coordination measures will be necessary to underscore 
to Pyongyang that there is no only one path available that will 
assure North Korea's viability in the long run.
    As long as North Korea's public commitments to the 
denuclearization of the Korean Peninsula as outlined in the 
Six-Party Joint Statement remains in place the administration 
should affirm its commitments to achieving normal diplomatic 
relations with a denuclearized North Korea in accordance with 
the principles embodied in the joint statement.
    In my statement I also discuss several other elements of 
the smart power approach to North Korea. One, which is 
emphasized in this one-road approach, is related to aligning 
U.S. alliances and partnerships, but there are three other 
elements that I would like to also highlight.
    One is our strategy related to international development as 
focus on North Korea has prioritized the provision of 
humanitarian aid but it has not allowed the opportunity to 
promote development assistance, and I think the net result of 
that approach has been anything but smart. It has promoted 
North Korean dependency on international welfare rather than 
encouraging them to learn how to work for themselves, and so I 
think we need to find ways of tying certain forms of 
development assistance to the denuclearization process as a way 
to open up North Korea.
    Secondly, I think in the area of public diplomacy we should 
be much more actively promoting exchanges and training with 
North Koreans without regards to what is happening in the 
negotiation process. It is important to provide opportunities 
for the North Korean technical specialists to come and 
experience other systems. I think that they will take back that 
experience and that approach is necessary in order for North 
Korea to be able to build the capacity to support change if 
indeed the regime comes to a point where it decides it would 
like to move in the direction of change.
    Then lastly, I want to highlight the promotion of North 
Korea's economic integration into Northeast Asia and I think 
that one way of doing that is for the DPRK and the World Bank 
to begin discussions about the requirements for membership in 
the World Bank. Those requirements require a certain level of 
conditionality which is going to be very difficult for the 
North Koreans to accept. It will take time for that process to 
play itself out, but that discussion in and of itself, I think, 
can be an important lever for encouraging North Korean reform.
    Thank you.
    [The prepared statement of Mr. Snyder 
follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Faleomavaega. Thank you, Mr. Snyder. Mr. Beck.

   STATEMENT OF MR. PETER BECK, ADJUNCT PROFESSOR, AMERICAN 
                           UNIVERSITY

    Mr. Beck. Thank you, Mr. Chairman. I really appreciate this 
opportunity to get to participate in this effort to try and 
find a more effective strategy for dealing with North Korea.
    I would like to start by presenting you with seven 
propositions that I think help define where we currently stand 
with North Korea and constrain our policy options. The first 
is--I am personally agnostic when it comes to whether the North 
is really prepared to completely give up its nuclear programs, 
materials and weapons. I believe anyone who tells you with 
conviction what the North is or is not prepared to do is 
telling you more about their own world view than about 
Pyongyang's intentions.
    As time goes by and as North Korea's nuclear arsenal grows, 
I grow increasingly pessimistic, but that does not mean that we 
should stop trying to engage the North, alas any nuclear deal 
with the North would indeed to be to borrow from Samuel 
Johnson's adage about remarriage, the triumph of hope over 
experience.
    Second, one thing I am reasonably certain of is that, and 
there are a few things that we can be certain of when it comes 
to the North, is that they will undertake one or more 
provocative acts in the coming weeks and months. The rumor de 
jour is a long-range missile launch. A second nuclear test 
cannot be ruled out either. Given how poorly the previous 
missile and nuclear test went it is difficult to say which 
system in the North is more desperate to test.
    As a Californian, I do not stay up at night worrying about 
North Korean bombs raining down on my family and friends. A 
military skirmish with the South cannot be ruled out but I 
think it is less likely if for no other reason than it would 
highlight and give us further confirmation of the North's 
military inadequacies.
    Third, I think we must assume that Kim Jong Il has made a 
full recovery from his probable health problems last summer. 
Since he will soon be 67 or 68, depending on who you ask, and 
he is still not the picture of perfect health, we must be 
prepared for a serious disruption in any negotiations that we 
undertake, particularly given the underwhelming nature of his 
three sons and not, coincidentally, the lack of a clear 
succession plan. As long as he is reasonably healthy, I find 
assertions about a divide between hardliners and softliners in 
the North to be highly speculative at best, and at worst, 
disingenuous.
    The notion of factions in a one-man totalitarian system is 
almost absurd. This is not to say that the military has not 
played a more prominent role of late, but I think this is most 
likely by design. The North is probably playing a game of good 
cop/bad cop.
    Fourth, having made several visits over the past 5 years to 
the China/North Korea border where I have spoken with dozens of 
Chinese and North Koreans, the North is not on the precipitous 
of famine. There are two reasons for this. The North has had a 
decent harvest this past year, and China is covering much of 
the shortfall along with the world food program. That is not to 
say that there is sufficient food or that there are not pockets 
of hunger but wide-scale famine is not in the cards unless 
Mother Nature strikes hard.
    That means that the modest humanitarian assistance that the 
United States is currently providing, 500,000 metric tons of 
grain, is unlikely to provide much in the way of leverage over 
the North. The U.S. and the rest of the world have sought to 
maintain the Ronald Reagan principle of a hungry child knows no 
politics, but the reality is that the northern good behavior 
almost always precedes increased assistance.
    Fifth, while the human rights situation is as abysmal as 
Congress Royce just described, it must invariably take a back 
seat to our national security interests. The nuclear 
negotiations are too complex and difficult for the issue to 
become a focal point, but that is not to say that this issue 
should merely be given lip service by our diplomats. I was 
encouraged by this committee's efforts to re-authorize the 
North Korean Human Rights Act last fall. It took awhile but we 
finally put our money where our mouths are when it comes to 
making it easier for North Koreans to resettle in the United 
States.
    Increasing Korean language radio broadcast to the North is 
also a most worthy endeavor. The folks working at Voice of 
America and Radio Free Asia are impressive. I have listened to 
their broadcasts. I have evaluated those broadcasts. They are 
effective, and I have talked to North Korean defectors who have 
listened to them. They do have an impact.
    My biggest hope is that the funds will be more 
expeditiously allocated than they were in the original act and 
I hope that a full-time human rights envoy will be appointed 
instead of a part-timer residing in New York. I think two can 
play the good cop/bad cop game.
    My sixth proposition is that Japan will continue to be part 
of the problem in our engagement efforts rather than part of 
the solution. Despite being one of our most important allies, 
by allowing the abduction of a handful of citizens decades ago 
to dominate all policy considerations when it comes to the 
North Tokyo has become irrelevant at the Six-Party Talks. Most 
importantly, Japan took the biggest carrot the world had to 
offer the North, billions of dollars in development assistance 
in lieu of reparations for its colonial rule off the table. 
Pyongyang is either unwilling or unable to provide Tokyo with 
the evidence it demands. Removing North Korea from the list of 
state sponsors of terror did not weaken our negotiating 
position with the North as it was essentially a symbolic 
gesture, but it did lead to a sense of betrayal in Japan.
    My final proposition arguably describe the biggest 
constraint on our North Korea policy options. There are 
virtually no conditions under with Beijing will curtail much 
less cut off its assistance to North Korea. The Bush 
administration liked to insist that the reason North Korea came 
back to the negotiating table in late 2006 was because China 
had gotten tough at the North by backing the U.N.'s sanctions 
resolution. While Beijing was clearly not happy, the bottom 
line was that China never implemented the resolution nor was 
there any interruption in economic assistance from China.
    For China, stability on its northeastern border is far more 
important than denuclearization. Even in the face of a global 
economic crisis, Beijing appears willing to spend several 
billion dollars a year to prop up the North.
    These seven propositions leave us in an undeniably 
difficult but not impossible place. I would like to suggest a 
smart power strategy for negotiations with the North. It may 
very well be that in the end the North will try to play it both 
ways--continue to negotiate for goodies while never fully 
giving up its nuclear power. After all, that is what they have 
really been doing for the last 17 year. We may have to live 
with the fact that the talks are little more than crisis 
management mechanism, but managing a crisis is far better than 
ignoring it, and remarriages happen all the time. I am the 
product of three of them.
    At the core of smart power is leveraging our alliances. The 
one country I have left out of my discussion so far is the one 
government we can closely coordinate a potentially more 
effective policy with them and that is Seoul. Ironically, even 
though South Koreans have opted for a more conservative 
President and legislature and Americans the opposite, the 
prospects for effective coordination have never been better. 
That is because based on the world views President Obama and 
Lee Myung Bak have espoused to date and the foreign policy 
teams that they have put together both are pragmatic moderates.
    President Lee is a businessman, not an idealogue. I have 
met with him and his foreign policy team countless times. 
Liberals in Seoul and Selig Harrison blame them for the North's 
increasing bellicose policy toward the South, but really all 
President Lee and his team have done is recalibrate an 
unconditional engagement policy that has yielded Seoul little 
in return. A strong majority of the Korean public, to the 
extent that they even care about North Korea, continue to favor 
a more balanced policy toward Pyongyang. In fact, Seoul's 
approach is no different than the Obama administration's is 
likely to be.
    Given the lack of a major shift in South Korean policy, why 
has Pyongyang become so bellicose? For the simple reason that 
the North potentially has much to gain and little to lose. 
Despite all the North's rhetoric, the joint industrial complex 
in Kaeseong expanded its output by more than 20 percent last 
year, and South Korean NGOs have maintained their projects with 
the North. Like Obama, Lee refuses to let his antagonists get 
him worked up and has repeatedly stated that he will wait until 
the North comes around.
    What does the North have to gain? Really, the North has 
lost nothing. What do they have to gain? Besides trying to 
drive a wedge between us and Seoul, the North seeks a return to 
the era of ``No strings attached'' largess. The North only see 
Seoul as a cash register, not as a nuclear negotiating partner. 
Moreover, they also know that if they cut a deal with 
Washington, Seoul will have little choice but to pay for it.
    A second component of smart power is trying to engage our 
adversaries in negotiations, both multilaterally and 
bilaterally. Bilateral negotiations will likely prove to be the 
key to a breakthrough, but maintaining the Six-Party Talks and 
reinvigorating trilateral coordination between Washington, 
Seoul and Tokyo will also be vital. Even if we are essentially 
on the same page with the South, there are still fears that the 
Obama administration could get out in front.
    Before talks resume, it is imperative that the Secretary of 
State select a capable negotiator that has experience with the 
North. We simply do not have time for a new envoy to get to 
know his counterparts and learn how to effectively negotiate. I 
can think of at least six former government officials that 
would fit the bill, one of them is sitting at this table right 
now.
    However, given the daunting nature of the job, it may not 
be easy to find a taker. The North has no peers when it comes 
to insults and brinkmanship. Moreover, the heavy diplomatic 
lifting has only just begun. Based on the eight-stage 
negotiating formula that I worked on for the International 
Crisis Group a few years ago, we are only at the beginning of 
Phase III.
    I would like to close by sharing with you my favor Korean 
proverb, which can serve us not only in dealing with North 
Korea, but also in the broader economic challenges that we 
currently face, and that you will be voting on soon, ``Even 
when the sky comes crashing down, there is a hole through which 
we can pass.'' Please help the Obama administration find that 
hole. Thank you for your time.
    [The prepared statement of Mr. Beck 
follows:]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Faleomavaega. Can you say that in Korean?
    Mr. Beck. [Speaking Korean.]
    Mr. Faleomavaega. [Speaking Korean.]
    Well, now that Secretary of State Clinton is fully weighted 
now with all the tools that she needs before she goes to her 
trip in Asia. I want to thank all of you gentlemen. I think 
your statements were most eloquent and very insightful in terms 
of the issue that this committee is considering and looking and 
reviewing, and I certainly want to thank you for your 
testimonies. I am going to withhold my questions for now and 
turn to my faithful compadres here, to our ranking member, Mr. 
Manzullo, any questions?
    Mr. Manzullo. I had a chance to look at most of the 
testimony. I just want to make a couple of comments.
    First of all, Professor Beck, when I went to American 
University, I was the recipient of the studies of the Lord 
Lyndsey of Berker, who had just established the School of Asian 
Studies at American University, and William Yandolette who 
would have been Nixon's secretary of state had he won that 
election in 1960, and it was a very interesting time in 
American history.
    I had never realized that I would be in the position to be 
on that very committee studying some of those issues we had 
studied back then, but let me just throw something out to you. 
We have five scholars here, and we have press from all over the 
world, and most of them followed me when I brought Chris Hill 
out to Rockford College in Rockford, Illinois. I have gotten to 
know Ambassador Hill quite well, and the tremendous work that 
he put into the Six-Party Talks, moving incrementally, and 
under quite a bit of criticism from Americans on both sides of 
the political spectrum, which is the way things work when you 
have free and open press.
    Let me throw this out and anybody wants to handle it, you 
can do it. If you were in North Korea in a position of 
authority and understood the English language quite well, and 
listened to this distinguished panel and the comments made, 
what would you do if you were in charge of the next round of 
talks? Who would like to take a stab at that? Ambassador 
Pritchard is terrorized that he might be made the next 
Ambassador there, so if you do not want to handle it, that is 
possible, Ambassador. Yes?
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Manzullo. Yes. Yes.
    Mr. Faleomavaega. I would suggest that you be the leading 
envoy representing President Obama on both sides.
    Mr. Manzullo. Yes.
    Mr. Faleomavaega. Okay.
    Mr. Manzullo. Who wants to take--who wants to be on the 
spot?
    Mr. Klingner. To paraphrase an old phrase, that analysts 
and fools go where angels fear to tread, I will jump in, sir.
    If I were advising Kim Jong Il, so thinking as a North 
Korean, what I would advise Kim Jong Il is that as much as he 
wants to ratchet up tension, as much as he wants to use his 
usual playbook of forcing either the South Korean or a United 
States leader to jump to his tune, that instead North Korea 
could be far more effective if they did not engage in 
brinkmanship right now. If they reached out to the U.S. and 
even adopted conciliatory approaches and offered concessions to 
the United States. That would invigorate engagers in the U.S. 
who would say this clearly shows that the problem has always 
been with the Bush administration. The problem did not lay at 
all with the North Koreans, and that this would lead the Obama 
administration to adopt a softer or more engaging or more 
conciliatory, whatever words you want to use, approach to North 
Korea than if North Korea is bombastic and threatening as they 
look like they are going to be.
    So if North Korea was more conciliatory, I think they would 
precipitate greater engagement not only in the Six-Party Talks, 
but perhaps in parallel lanes in the road of other 
negotiations--missiles or whatever. So I think a North Korean 
advisor could advise that but I do not think that is what Kim 
Jong Il will tend to do.
    Mr. Pritchard. If I may, the North Koreans do follow these 
hearings. They will look them up and they will read the 
testimony, so they will have the benefit of the discussion here 
today. But the one thing that they will go away with is a sense 
that this panel and your questions are leading to the path has 
been a little bit too narrow, and we certainly here have 
recommended opening that up, including more issues, whether it 
is missiles, proliferation, the question of HEU has to be 
brought up.
    So if you were sitting in Pyongyang, you would be re-
calculating what you needed to do when the next American 
delegation came because it will not be where things left off, 
at least I do not think so. So they are going to have to think 
a little bit more broadly on how to handle all of these issues.
    Mr. Cha. I think that--I mean, I probably have this kind 
of--I have had the most recent experience of actually 
negotiating with the North Koreans in Six-Party Talks, and I 
have to say if I were them right now I would feel as though my 
long-term objective is well on the way to being achieved, which 
is to be accepted as a nuclear weapon state and to try to 
achieve as much of a working relationship with the rest of the 
world, including the United States, as I could, and I think we 
really hit a very important point in the verification 
negotiations in December 2008, because that would be the point 
at which the North really would have to show its cards. There 
are a lot of card-playing analogies, show its cards about 
whether it was serious about denuclearization, and I think it 
disappointed everybody, all the parties at the Six-Party Talks 
when they came in December 2008 and clearly were not ready to 
talk about verification.
    Mr. Snyder. I think that the North Koreans probably believe 
that their crisis escalation approach is working. I think they 
feel that they can keep this process going without facing a 
situation where they are going to have to make a real choice, 
and so I imagine that basically what Kim Jong Il and his 
advisors are looking for are the divisions that they can 
exploit. That is the reason why in my testimony I suggested 
really that we needed to focus on mobilizing a coalition, 
providing a way out but blocking the fire escape.
    Mr. Faleomavaega. Mr. Beck, did you want to comment?
    Mr. Beck. I am ready for another question.
    Mr. Faleomavaega. Dana?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    I would like to raise an issue that I think is of utmost 
importance for us to look at rather than ignore. It is a very 
easy issue to ignore because it is only dealing with perhaps a 
small number of people, and the scope of the actual issue at 
hand seems to be tiny, but I believe that sometimes there are 
issues like this that can be of great importance because they 
relate directly to let us say the moral status or the moral 
situation at the heart of what is going on at the challenge, 
the heart of the challenge that people face. So let me just get 
right to it.
    Mr. Beck, you mentioned in passing how the Japanese 
Government has made such an issue over these kidnapped victims, 
their citizens who have been kidnapped by the Koreans and the 
North Koreans will not let them come back. Nobody else seems to 
think that is an important issue.
    Let me state for the record right now that I admire the 
Japanese for the fact that they will not simply ignore that 12 
of their citizens were kidnapped by this brutal gangster regime 
in North Korea, and that the North Koreans will now not give 
them back, and that they are willing to take a stand on that. I 
think that speaks very well of the Japanese, and I think it 
speaks very poorly of other people in this world who would 
simply gloss that over and say that does not matter.
    Well, it does matter. It matters because if we have a 
regime in North Korea which is basically headed by gangsters 
who would go and kidnap people from other countries, and then 
not give them back once they are trying to say, you know, we 
want to have a better relationship but we are not going to give 
back these people that we kidnapped, well, then that says we 
should not necessarily be treating them as a legitimate 
government. We should not be treating them as decent people or 
try to make deals. How can you make a deal with a regime in 
North Korea that refuses to even release 12 or 15 kidnapped 
victims from Japan? How can we trust them with the lives of 
hundred--not hundreds, but thousands, even tens of thousands 
and millions of people, in which an agreement with Korea would 
affect our security and certainly the security of South Korea 
and Japan, how can we trust them if they will not even give 
those people back?
    Now, that is number one and I would like to just throw that 
out to the panel, but make sure that this is clear. Our last 
witness, I respect him, he is obviously an expert, but he just 
exemplified that theory about trying to--just try to be nice. 
It is smart power--that is what we are talking about here--if 
smart power means just being nice and trying to get along and 
be cuddly, and warm and cuddly to the dictators and gangsters 
of this world, thinking that that is going to make us safer, 
they will fail, and quite usually--usually, I might add, the 
policy behind a warm and cuddly relationship with dictators 
usually there is some U.S. corporations that are benefitting 
behind that, I might add. Usually what you have got are 
corporate interests who are making a profit off dealing in a 
monopoly relationship with those decisions with that dictator, 
but I do not know about that in terms of the Korean situation. 
But I do know that the North Korean Government is still run by 
people who would not agree to give back kidnapped victims. 
Should that not be part of our consciousness when we are trying 
to make a deal with them?
    Mr. Beck. I certainly think it is important, but I think we 
have to establish priorities, and if we stick to this moral 
principle that until they completely come clean on this issue, 
and that prevents us from making progress on the nuclear issue, 
then we are undermining our own national security. The nuclear 
problem, you know, the first 6 years of----
    Mr. Rohrabacher. But how can you trust them to be honest 
with us on a nuclear issue when they will not even be honest 
with us for 12 kidnapped victims?
    Mr. Beck. You know, we could go into detail, but they 
actually did start the process of coming clean on this issue, 
and it was actually the Japanese that slept under the rug the 
evidence about Yokota Megumi that the remains that they 
received--we do not know whose remains they are. The Japanese 
Government reached its conclusion that they are not hers, but 
they are cremated remains. You cannot conduct a DNA test on 
cremated remains, yet they maintain that they are not her 
remains, and this fiction has been put onto the Japanese 
public.
    The North Koreans feel burned. They feel like they gave 
back remains, and let family----
    Mr. Rohrabacher. I have got to tell you something. When I 
see the nature of the Japanese Government and the amount of 
freedom they have in Japan as compared to the oppression and 
brutality of what is going on in North Korea, I am not going to 
give the benefit of the doubt to the North Koreans, that they 
are the ones who are in the right side of that argument, and it 
is the Japanese who are burning these sincere North Koreans who 
are trying to solve an issue.
    I have seen so much duplicity, and you always find this 
among gangsters and dictators. They are duplicitous. You cannot 
trust their word on things like this or anything else because 
they are willing to murder their own people. This regime that 
we are talking about in North Korea they are willing to starve 
their own people. The average height of the North Korean is two 
inches shorter than the people in South Korea because they have 
been squandering all the money that should be going to food for 
their people on weapons to give themselves power and leverage 
over other human beings.
    I think when you take moral stands, even when it is related 
to 12 people who have been kidnapped, that that moral stand 
will help guide you in big decisions that will be important 
like the nuclear weapons thing you are talking about. Cannot 
make a stand on one, you certainly cannot make a stand on the 
other.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman from California. 
This is why we have a democracy. Everybody is entitled to their 
opinion.
    Mr. Royce.
    Mr. Royce. Well, it is not always democracy, Mr. Chairman. 
There was not one in the Soviet system but Andrei Sakharov, one 
of the dissenters there, spoke along the same lines that Mr. 
Rohrabacher just spoke. He said, you know, the way in which a 
country mistreats its own people--in terms of concentration 
camps is what he was talking about--might tell you a lot about 
the way that country will treat its neighbors, and hence that 
takes us to some of the concerns here. I know that it is not 
popular to put that into the calculus in terms of how North 
Korea is going to react.
    I wanted to ask Mr. Klingner. Specifically, I wanted to 
raise a couple of points because, one, there were 100 items 
related to uranium enrichment that North Korea was buying. Many 
of those came, as I reported earlier, from A.Q. Khan, who we 
investigated.
    Khan himself described the transfer of those centrifuges to 
North Korea. That presents a certain problem. A.Q. Khan says he 
gave them the centrifuges. We know how many trips A.Q. Khan 
sent north from Pakistan to North Korea. A year ago the 
Director of National Intelligence McConnell testified that, 
while North Korea ``denies a program for uranium enrichment and 
they deny their proliferation activities, we believe North 
Korea continued to engage in both.''
    And then you have got the very real problem that the 
aluminum tube samples that they gave to prove to us that they 
were not involved in highly enriched uranium business had HEU 
traces all over it. So also the 18,000 pages of Yongbyon 
operating records were covered with what? Highly enriched 
uranium. That is a problem.
    So, Mr. Klingner, you have a background in intelligence. 
Give me your thoughts on that, if you would.
    Mr. Klingner. Yes, sir, thank you. I think people have been 
dismissive of the small amount of information that has leaked 
out to the public domain about the highly enriched uranium 
program that North Korea was pursuing, and then say they are 
not convinced by that evidence that North Korea was or is 
continuing to pursue such a program. It is presumptuous for any 
of us outside of government now to assume that what has been 
reported in a few newspapers is the totality of the information 
that the United States intelligence community has on North 
Korea's pursuit of an HEU program.
    The DNI has said that, prior to the confrontation in 2002, 
all 16 components of the intelligence community had assessed 
with a high level of confidence that North Korea was pursuing 
an HEU program. After the confrontation, when we obviously let 
them know we knew of this pursuit, the intelligence community 
continued to have a medium-level of confidence. That did not 
mean the U.S. intelligence community was lowering its 
assessment, it was merely that after North Korea was confronted 
with it there was less level of confidence that they were 
continuing to do so, either because they realized they had been 
caught and perhaps were stopping it, or more likely they now 
knew we were on to them and they were able to prevent 
continuing acquisition of intelligence.
    As you pointed out, in addition to the various tidbits that 
have leaked out, there are others. There is the 20 tons of 
aluminum tubes that the Germans and others intercepted. There 
was not only Prime Minister Musharraf who said that A.Q. Khan 
or Pakistan had provided centrifuges, but also Prime Minister 
Bhutto said that in the early nineties she transported computer 
disks with information on uranium-based nuclear weapons 
program.
    So these are the tidbits that have leaked out, and I assume 
that the information, some of which I saw when I was still in 
service, you know, is of a far greater totality. So we do not 
know how far along the program is but I think they clearly were 
pursuing it, which is a violation of four international 
agreements for them to denuclearize, so it is certainly 
something of grave concern to the United States and its allies, 
and I think as part of the verification regime that we need to 
have, that we not only must focus on plutonium but we also must 
focus on the HEU program as well as the proliferation 
activities that occurred clearly with Syria and perhaps with 
others.
    More recently there was a North Korean fight from Burma to 
Iran that was stopped----
    Mr. Royce. Intercepted by the Indians.
    Mr. Klingner. I am sorry?
    Mr. Royce. Intercepted by the Indian Government.
    Mr. Klingner. Yes, sir, and the U.S. invoked the 
proliferation security initiative to do so, and the PSI only 
pertains to WMD or missile.
    Mr. Royce. Right.
    Mr. Klingner. So clearly even late last year the U.S. 
Government believes North Korea is attempting to proliferate 
something to Iran.
    Mr. Royce. Well, I would like to go to another argument. 
Mr. Harrison had pointed to his 2005 Foreign Affairs article on 
North Korea's HEU program. There is a rebuttal to that in 
Foreign Affairs magazine written by Mitchell Reiss and Robert 
Gallucci. It is a bipartisan article rebutting the claims, and 
I would just like to--we will put it in the record. But I would 
just like to focus on the point on A.Q. Khan. They say,

        ``A.Q. Khan, who ran a black market nuclear supply ring 
        for Pakistan, has confessed to providing North Korea 
        with centrifuge prototypes and blueprints which enabled 
        North Korea to begin its centrifuge enrichment program. 
        North Korea's decision to begin acquiring materials in 
        larger quantities for uranium enrichment facility with 
        several thousand centrifuges suggests that its R&D 
        level enrichment endeavors have been successful. 
        Likewise, its procurement of equipment suitable for use 
        in uranium, hexoflorid feed and withdrawal system also 
        points to planning for uranium enrichment facility.''

This was back in 2005.
    Now we have subsequently got the hard evidence. They argued 
at the time,

        ``To focus solely on the more visible plutonium program 
        would mean turning a blind eye to a parallel program 
        that has the potential to provide North Korea with a 
        covert steady supply of fissile material for the 
        fabrication of nuclear weapons or export to terrorist 
        groups. To start a new relationship, North Korea must 
        foreswear its nuclear ambitions and the Six-Party Talks 
        offer the best opportunity for resolving this issue 
        through peaceful multilateral diplomacy.''

    It is that underlying problem of constant proliferation, 
constant duplicity, as I said, going back to the 1994 framework 
agreement. Those of us who have been on this committee and have 
in the past given the benefit of the doubt to North Korea have 
over time witnessed only one strategy--a street that goes only 
one way. And bringing up again this question about the way a 
society treats its own citizens. When you begin to liquidate 
people, and they allowed 1.9 million to starve, but hundreds of 
thousands have been worked to death in those camps. I have 
never seen photographs like the ones of some of the children in 
North Korea that exist in those camps other than the ones my 
father took with his brother's camera when they liberated the 
camp at Dachau. That is exactly how people looked--not two 
inches shorter--six inches shorter. I have been in North Korea. 
They are a half-foot shorter because of malnutrition. Fifty 
percent of those kids have malnutrition to the point where it 
is affecting their physical ability to really function as an 
adult, and you see that and you see the starvation, and you 
realize that people who are sent to those camps are sent there 
to be worked to death. In this day and age the international 
community should, frankly, find the time and effort to 
broadcast into North Korea the kind of information we broadcast 
into the former Soviet East Bloc, and let people know fully 
what is actually going on in that society. As one of those 
North Korean politburo members said, ``If you are not listening 
to those broadcasts, you are like a frog in a well'' because 
you don't actually know what is happening in the rest of the 
world.
    Our goal should be to have the people inside North Korea, 
besides the head of state, understand what is going on in their 
country, and understand what is going on in the rest of the 
globe, and bring the pressure to bear to get some kind of 
change. You know, we wish the people well, but transferring 
another $1 billion to this government so it can send people 
into camps like that, I do not know where that is going to go. 
My fear is that the hard currency is going to be used instead 
to develop ICBMS to miniaturize these nuclear weapons, and they 
certainly are going to use their network out there that they 
proliferate with abandon given what they have done in Syria.
    Mr. Chairman, that is my view, but I appreciate the 
opportunity to talk to the witness.
    Mr. Faleomavaega. I thank the gentleman for his questions 
and his thoughts on this issue.
    I think in fairness to Secretary Clinton I thought I would 
get portions of her statement that were made before the Senate 
Foreign Relations Committee in defining what ``smart power'' 
means because we seem to have a difference of interpretation 
here from my friend Mr. Rohrabacher. I just want to quote a 
portion of the statement:

          ``The President-elect and I believe that foreign 
        policy must be based on a marriage of principles and 
        pragmatism, not rigid ideology. On facts and evidence, 
        not emotion or prejudice. Our security, our vitality 
        and our ability to lead in today's world oblige us to 
        recognize like overwhelming fact of our 
        interdependence. I believe that American leadership has 
        been wanting but is still wanted. We must use what has 
        been called `smart power' meaning the full range of 
        tools in our disposal, diplomatic, economic, military, 
        political, legal and cultural, picking the right tool 
        or combination of tools for each situation. With smart 
        power diplomacy must be the vanguard of foreign 
        policy.''

    I just wanted to make clear because I purposefully used 
that phrase ``smart power'' as the basic topic of our 
discussion this afternoon.
    Ambassador Pritchard, I know you have been sitting there 
quite patiently. You recommended that there should be a 
continuation of the Six-Party Talks. My question is how long 
are we going to continue talking? There has got to be some 
point--we have already done this for 6 years now, and I suppose 
for the hawks in Pyongyang they love talking for the next 30 
years as long as they continue getting what they want and 
nothing from us. So could you comment on this?
    Mr. Pritchard. Well, Mr. Chairman, I would suggest that we 
have not been talking for 6 years. We have probably been 
talking for about 2 years out of the last 8, and part of my 
testimony, as I mentioned, that I am not anxious to see us 
continue talking for the sake of talking, and my concern, as I 
mentioned, is this Phase III as a continuation of these 
discussions and negotiations that really does not get us where 
we need to go, and that, as you point out, potentially years 
more of negotiations.
    So what I have offered up is a suggest that we just skip 
that and move directly to the end game of negotiations and 
determine whether or not North Korea is willing to give up 
their fissile material, their nuclear weapons. Are we willing 
to provide that degree of normalization that they are seeking? 
And can we do that in a very prompt matter of time?
    I do not put a timeline on that, but I certainly do not 
want to see this drag out for another 4 years.
    Mr. Faleomavaega. Would it be predictable that--I ask 
Professor Cha--would it be predictable for me to say now that 
as far as denuclearization issue is concerned it is a 
stalemate, it will not happen?
    Mr. Cha. Much as I would hope that I could disagree with 
you, I cannot. I think that many of the things that Mr. 
Harrison was talking about in his earlier testimony about non-
aggression pact, normalization, if people go back and read the 
2005 joint statement, we have put a lot of those things in 
there. In fact, there is a statement--if you go back to the 
2005 joint statement, it says that the United States will not 
attack North Korea with nuclear or conventional weapons.
    I remember when we sent that language back to Washington 
from Beijing overnight to get approval I did not think it was 
going to get approved. It came back the next morning approved, 
and I think many of us were quite surprised, including the 
Russian delegation, and the Russian delegation actually asked 
for a separate meeting with the North Koreans to say to them 
the Americans are serious because we tried to get this language 
from them during the Cold War and could never get it from them.
    So, I think that they have many of the statements that they 
want from us. They have the--as laid out in the joint 
statement--the prospect of normal political relations. They 
have the promise of energy and economic assistance. They even 
have the vision of a Northeast Asian peace and security regime 
in which they would live after they gave up their nuclear 
weapons.
    But in spite of putting all those things on the table they 
do not appear to be very interested in doing more than simply 
disabling portions of their program and not moving forward to 
the final end game--the fissile material and the full 
dismantlement of those programs.
    So, you know, I think that we will be stalemated for 
awhile. I do not think that means that we should give up on 
negotiation because what it does do is it enables us to keep 
people on the ground in North Korea at these facilities, to 
keep them disabled and slowly degrade them, and that is 
important. We need to be able to do that. We do not want them 
to restart some of these programs.
    If I could make one point on human rights as well. I think 
Congressman Royce is absolutely right, that when you have a 
regime that treats its people the way that North Korea does, it 
is very difficult to trust them, and I think one of the 
mistakes of the policy in the Bush administration was we tended 
to separate the human rights discussion from the 
denuclearization discussion because people were concerned if 
you upset the North Koreans on human rights you are not going 
to make progress on denuclearization.
    I think the fact of the matter is I would take very small 
steps by the North Koreans on denuclearization if they were 
also making big steps on human rights. That is a lot more 
credible than big steps on denuclearization with no change in 
the human rights policy. So, I think those two things actually 
come together a lot more than we did in the past.
    Mr. Faleomavaega. Mr. Klingner?
    Mr. Klingner. I think if 20 years from now we are still 
discussing the size and shape of the table, as we seem to be 
doing now, then U.S. diplomacy will have failed. I think we do 
need to set deadlines and timelines and a roadmap toward 
achieving denuclearization. The actual denuclearization may 
take some time, but I think we do need to have a more clearly 
defined blueprint and strategy for getting there.
    If North Korea is allowed to continue to drag out talks and 
continue to have agreements which are vaguely worded enough 
that there are very large loopholes so they do not have to 
comply, then they will have achieved their objective of 
achieving de facto, of not de jure recognition as a nuclear 
weapons state.
    So, I think that we should continue to seek a diplomatic 
resolution to the North Korean nuclear problem. That is one of 
the aspects of smart power. But also I do not think we should 
abandon other avenues of trying to influence our negotiating 
opponent, including continuing law enforcement efforts. I do 
not think we should abdicate enforcing U.S. and international 
law against counterfeiting, drug running, and other illegal 
activities by the North. That should not be negotiable. Just as 
I do not think humanitarian assistance should be linked to 
<greek-l>to  deg.progress in the denuclearization. I do not 
think enforcing our laws and international laws should be 
linked to denuclearization. It is something that we should do 
anyway.
    Also, I think we should begin implementing U.N. Resolution 
1695 and 1718, which the United Nations Security Council passed 
but which has largely been held in abeyance for over 2 years. 
North Korea has been in violation of two U.N. Security Council 
resolutions for 2 years. I think we should begin implementing 
that, so along with that pressure you also have diplomacy.
    The Chinese military strategist San Tzu said never surround 
your enemy totally because they will just fight all the 
fiercer. In this way the avenue of exit is the Six-Party Talks. 
You pressure them but you also say we are willing to meet with 
you, we will not insult you, we will not threaten you, but we 
are opening negotiations but we will not allow those to go on 
indefinitely.
    We can pick a deadline. I could say after the Obama 
administration has got all its officials in place and its North 
Korea policy all set, we could say, why not give a year? There 
is nothing magical about a year, but why don't we <greek-l>not 
deg.say, a year after the Obama administration has said we are 
ready to engage, why not evaluate at the end of that year?
    It is not a binary decision in which we call diplomacy to a 
halt on the 366th day, but I think after a year we would have a 
very good sense of whether we feel North Korea has changed its 
tactics, its strategy, its approach with the new U.S. 
administration.
    Mr. Faleomavaega. Mr. Snyder, since you like smart power so 
much, what would be your recommendation to Secretary Clinton on 
her upcoming trip to Asia, especially in dealing with the North 
Korean situation?
    Mr. Snyder. Well, what I have been trying to emphasize 
today, which is really I think my core recommendation is that 
we need to--the United States----
    Mr. Faleomavaega. No, I think you made a very good point. 
We ought not to continue having North Korea to be totally 
dependent on foreign assistance programs, becoming a welfare 
state, and then continue without becoming independently self-
sufficient if you want to put it in those terms. So, how can 
the world community or the United States for that matter, give 
that kind of assistance?
    Mr. Snyder. Well, with regard to the negotiations, I think 
that it is important for the United States to work with our 
allies and partners to mobilize support, active support to 
block North Korea from continuing to move in this direction.
    What I also tried to do, I think, and recommend is a kind 
of de-linking of some of the issues that we have not been able 
to move forward on in the area of development and in the area 
of economic integration from the negotiation process in a very 
selective way. And so, you know, bringing North Koreans out to 
learn about specific technical processes should not be 
underestimated.
    In the previous administration we played a tit-for-tat 
game. If they imposed restrictions on United States access 
inside North Korea, the U.S. Government did the same. But I 
think that we should unconditionally be trying to support 
engagement of North Koreans understanding of what is happening 
in the outside world quite apart from a nuclear strategy.
    Mr. Faleomavaega. I do not speak for my colleagues but I 
have been always a strong, strong supporter of Foreign 
President Kim Dae Jung's sunshine policy, the idea that some 
way or somehow the two Koreas work things out together. I am 
one of the two members that have visited Kaesong Industrial 
Complex, and I come away very, very impressed about the fact 
that a seed has been planted. Of course, the money goes to the 
government, but at least giving some 40,000 North Koreans an 
opportunity to work for, whatever is opening the door to some 
sense of commerce to be established between the two Koreas.
    Now I know that some of my colleagues do not agree with 
that policy, the sunshine policy, but I certainly for one 
believe in that. Mr. Beck, I note with interest your mention of 
Japan's non-help providing the 200,000 tons of heavy oil--that 
was because of the kidnapping situation. Help me, how did we 
ever come about in saying that with North Korea we need to have 
five other countries to negotiate with, but with Iraq, full 
speed ahead?
    There seems to be some ideological play here, at least, and 
correct me if I am wrong on this, Ambassador Pritchard. On the 
one hand we practice unilateralism, and then on the other hand 
we practice multilateralism. Was there any possibility that 
maybe we could have handled the situation differently with Iraq 
than we did with North Korea of having Six-Party Talks? Could 
we have done the same thing in bringing Iran and Jordan and 
Egypt and the other countries in the Middle East who do have a 
direct interest of what we were about to do with Iraq before we 
went ahead preemptively and attacked Saddam Hussein who, by the 
way, never attacked us on 9/11?
    But let me ask Mr. Beck. As I try to figure what really--
what national interest, what really--real important interests 
that Japan has toward this whole thing dealing with North 
Korea. Of course, the security--Russia, PRC, because China is 
next to North Korea; South Korea obviously because of our 
security alliance with South Korea. So as you mentioned in your 
statement that Japan has become somewhat irrelevant because 
what it is demanding from North Korea is not in anyway related 
to the question of the denuclearization efforts that we are 
supposed to be making as part of our foreign policy here.
    Mr. Beck. I have talked to numerous Japanese officials who 
in private have told me that they share my views that privately 
that they feel that they have been hamstrung by the issue. The 
problem is public opinion----
    Mr. Faleomavaega. Mr. Beck, I am informed that Ambassador 
Pritchard has to catch a flight, and please convey to your son 
my best regards. Tomorrow, I am going to be seeing my soldiers 
in Kuwait, and I know the feeling, Ambassador, and I think all 
of us here have relatives, brothers and sisters, wives, 
husbands, who have been involved in this terrible conflict that 
we have been involved in with Iraq, and God speed to you, Mr. 
Ambassador, if you have to catch a flight.
    Mr. Pritchard. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to speak here, and thank you for 
allowing me to leave.
    Mr. Faleomavaega. Please. Mr. Beck.
    Mr. Beck. I was just going to say, I have spoken with many 
Japanese officials who are privately very frustrated with the 
position that they have been placed in because they would like 
to be relevant to the Six-Party Talks and do feel that 120 
million Japanese citizens takes light presence over 12 people. 
Principles are great, but the reality is we have to deal with 
Nazi regimes unless we want to potentially undermine our own 
national security.
    Mr. Faleomavaega. Well, I could add that 200,000 Asian 
women who were abducted and raped and forced into prostitution 
during World War II by Japanese soldiers, that is not a very 
pretty picture to recite or to explain what happened 
historically. I did not mean to----
    Mr. Beck. No, no, you are quite right. The Japanese are not 
morally pure either when it come to this issue. They have their 
own past that they still have not confronted, I think, in a 
responsible manner.
    But I, like you, I have also visited the Kaesong complex a 
couple of times and was very impressed. It is very frustrating 
because you really cannot talk to anyone there that is actually 
working there. I have tried and I get shooed away every time. 
But I too was very impressed with the prospects for 
cooperation. But the fact is the North Koreans are, I think, 
seriously contemplating scraping Kaesong.
    We can debate whether they are just bluffing but they have 
sent military officials to Kaesong and I have talked to South 
Korean officials that say--you know, I ask them, do you think 
the North Koreans are bluffing? No, we do not. Even a person 
working in the Kaesong complex said they are not bluffing. This 
is a dilemma for them to accept South Korean companies, 90 some 
South Korean companies, have hundreds of South Koreans, 
thousands of South Koreans working there. They like the money 
but they do not like having the exposure that their people, 
even in limited numbers are getting to this complex, and we 
like to say that the Chinese have the most leverage with North 
Korea, and that is what really constrains our policy, and even 
the neocons realize that they could not go it alone. They could 
more or less on Iraq, but they really could not go it alone on 
North Korea, and particularly without China's support. Any get-
tough measures just are not going to work with North Korea, and 
in the meantime we are risking more, so we really do not have 
any choice but to negotiate, and unfortunately I mistakenly 
thought that the South had developed leverage over the North 
with Kaesong, with the tourism, with all the trade. South Korea 
is North Korea's second leading trade partner. The North 
Koreans seem perfectly willing to turn their backs not only on 
South Korea but potentially even China, and when you have a 
regime that is willing to starve its own people, and do what is 
not in the best interest of its country, it makes it very hard 
to negotiate with them. No question. But again, I do not 
think--it is still our least bad option and I do not think we 
have any other choice but to continue trying.
    Mr. Faleomavaega. Have we done any studies, Professor, Cha, 
on the potential value of the minerals, all that is there in 
North Korea? I am told that it is pretty substantial. I do not 
know about oil and gas, but other things that are of value 
there as far as North Korea is concerned. Do you know anything 
about that?
    Mr. Cha. I do not know if there are any official studies. 
There may be some private U.S. companies that have looked it. 
One group that we know has looked at it very carefully has been 
China because the Chinese have been working very hard to keep 
their fingers in and their interest, economic interests in 
the----
    Mr. Faleomavaega. Like they have done in Africa and almost 
every other place in the world.
    Mr. Cha. Yes. So I think that they certainly have been 
quite interested in that.
    If I could answer your earlier question about Six-Party. I 
think one of the reasons that the Bush administration became 
interested in the concept of a multilateral dialogue on North 
Korea was that there was a realization that while the North 
Korean nuclear problem was an American problem, it was also a 
regional problem, and that there was a need for other parties 
to play a role both in terms of incentives as well as 
disincentives, and the two key countries that had the levers in 
many ways both in terms of incentives and disincentives were 
the Chinese and the South Koreans, and I think for that reason 
it was very important to try this multilateral process and try 
to mobilize regionally support in getting the North--persuading 
the North Koreans to take the right path.
    With regard to Japan, while I certainly understand the 
concerns that many people have about Japan being hamstrung by 
the abductions issue, we also have to remember that for the 
Japanese people the whole question of whether citizens were 
abducted was a rumor that was out there for decades that, 
frankly, most of the Japanese public did not take seriously.
    Then to have this movement where the Japanese Prime 
Minister goes to North Korea and the North Korean leader admits 
that they undertook these actions, I think, was really a shock, 
a heartfelt shock by many Japanese, and I think for that reason 
there was an emotional reaction that has colored the total 
political landscape in Japan.
    I think that there is a separate Japan-North Korea Working 
Group within the Six-Party process, and there has been an 
effort to try to move Japan-DPRK relations forward both through 
that formal process as well as through informal contacts, but 
the North Koreans really do not want to do anything on this 
abduction issue and that, of course, makes it politically very 
difficult for the Japanese Government to move.
    Mr. Faleomavaega. Well, gentlemen, there seems to be a 
consensus from your statements that the first thing the Obama 
administration needs to do is to appoint an envoy of George 
Mitchell's caliber, maybe to be part of the delegation in 
conducting the negotiations. Perhaps that could be our offered 
recommendations or suggestions to Secretary Clinton. Whether 
she does it before or after the return from her trip, we will 
see what happens. But I have a couple other questions but I 
think we have taken so much of your time already, and look 
forward to calling you back again when we see what might happen 
not only in North Korea, but maybe other areas in Asia.
    Thank you very much for your coming. The hearing is 
adjourned.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


 Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Material submitted for the record by the Honorable Donald A. Manzullo, 
        a Representative in Congress from the State of Illinois

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Material submitted for the record by the Honorable Edward R. Royce, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
